<html>
<title> - ALBUQUERQUE BIOLOGICAL PARK TITLE CLARIFICATION ACT; TAMARISK CONTROL AND RIPARIAN RESTORATION ACT; SALT CEDAR CONTROL DEMONSTRATION ACT; REPAYMENT CONTRACT WITH TOM GREEN COUNTY WATER DISTRICT; AND UPPER MISSISSIPPI RIVER BASIN PROTECTION ACT</title>
<body><pre>[Senate Hearing 108-211]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-211
 
 ALBUQUERQUE BIOLOGICAL PARK TITLE CLARIFICATION ACT; TAMARISK CONTROL 
  AND RIPARIAN RESTORATION ACT; SALT CEDAR CONTROL DEMONSTRATION ACT; 
  REPAYMENT CONTRACT WITH TOM GREEN COUNTY WATER DISTRICT; AND UPPER 
                 MISSISSIPPI RIVER BASIN PROTECTION ACT

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

                                     

                           S. 213                                H.R. 856
 
                           S. 1236                               H.R. 961
 
                           S. 1516
 


                                     
                               __________

                           SEPTEMBER 23, 2003


                      Printed for the use of the
              Committee on Energy and Natural Resources





                      U.S. GOVERNMENT PRINTING OFFICE

90-751                       WASHINGTON : 2003
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001







               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
DON NICKLES, Oklahoma                JEFF BINGAMAN, New Mexico
LARRY E. CRAIG, Idaho                DANIEL K. AKAKA, Hawaii
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
LAMAR ALEXANDER, Tennessee           RON WYDEN, Oregon
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
JAMES M. TALENT, Missouri            MARY L. LANDRIEU, Louisiana
CONRAD BURNS, Montana                EVAN BAYH, Indiana
GORDON SMITH, Oregon                 DIANNE FEINSTEIN, California
JIM BUNNING, Kentucky                CHARLES E. SCHUMER, New York
JON KYL, Arizona                     MARIA CANTWELL, Washington

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                    LISA MURKOWSKI, Alaska, Chairman
            BEN NIGHTHORSE CAMPBELL, Colorado, Vice Chairman

GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
JON KYL, Arizona                     BOB GRAHAM, Florida
LARRY E. CRAIG, Idaho                RON WYDEN, Oregon
JAMES M. TALENT, Missouri            TIM JOHNSON, South Dakota
JIM BUNNING, Kentucky                DIANNE FEINSTEIN, California
CRAIG THOMAS, Wyoming                CHARLES E. SCHUMER, New York
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                         Shelly Randel, Counsel
                Patty Beneke, Democratic Senior Counsel




                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Allard, Hon. Wayne, U.S. Senator from Colorado, Letter...........     2
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     3
Brown, A. Gordon, Invasive Species Coordinator, Liaison to the 
  National Invasive Species Council, Department of the Interior..    13
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado........     3
Carlson, Tim, Executive Director, Tamarisk Coalition.............    29
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     4
Gabaldon, Michael, Director of Policy Management and Technical 
  Services, Bureau of Reclamation, Department of the Interior....    19
Hirsch, Robert M., Ph.D., Associate Director for Water, U.S. 
  Geological Survey, Department of the Interior..................    22
Hughes, Debbie, Executive Director, New Mexico Association of 
  Conservation Districts.........................................    38
Kind, Hon. Ron, U.S. Representative from Wisconsin...............     6
Marshall, John, Assistant Director, Colorado Department of 
  Natural Resources..............................................    36
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     1
Stenholm, Hon. Charles W., U.S. Representative from Texas........     9
Stoerker, Holly, Executive Director, Upper Mississippi River 
  Basin Association..............................................    41
Tate, Jim, Science Advisor to the Secretary of the Interior, 
  Department of the Interior.....................................    15

                                APPENDIX

Additional material submitted for the record.....................    49


 ALBUQUERQUE BIOLOGICAL PARK TITLE CLARIFICATION ACT; TAMARISK CONTROL 
  AND RIPARIAN RESTORATION ACT; SALT CEDAR CONTROL DEMONSTRATION ACT; 
  REPAYMENT CONTRACT WITH TOM GREEN COUNTY WATER DISTRICT; AND UPPER 
                 MISSISSIPPI RIVER BASIN PROTECTION ACT

                              ----------                              


                      TUESDAY, SEPTEMBER 23, 2003

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The subcommittee met, pursuant to notice, at 2:37 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. I call to order this meeting of the 
Subcommittee on Water and Power. It is my pleasure to welcome 
everybody to the subcommittee this afternoon. We have a total 
of five bills before the subcommittee today: S. 213, the 
Albuquerque Biological Park Title Clarification Act, introduced 
by Senators Bingaman and Domenici; S. 1236, the Tamarisk 
Control and Riparian Restoration Act, introduced by Senators 
Campbell and Allard; S. 1516, the Salt Cedar Control 
Demonstration Act, introduced by Senators Domenici and 
Campbell; H.R. 856, a bill authorizing the Secretary of the 
Interior to revise a repayment contract with the Tom Green 
County Water Control and Improvement District No. 1, introduced 
by Congressman Stenholm; and H.R. 961, the Upper Mississippi 
River Basin Protection Act, introduced by Congressman Kind.
    I would like to extend a special welcome to our two 
distinguished House members here today, Congressman Stenholm 
who will be offering remarks in support of H.R. 856, and 
Congressman Kind on behalf of H.R. 961.
    I would also like to welcome: Michael Gabaldon, the 
Director of Policy Management and Technical Services for the 
Bureau of Reclamation; Gordon Brown, the Invasive Species 
Coordinator for the Department of the Interior; and Bob Hirsch, 
Chief Hydrologist and Associate Director of the U.S. Geologic 
Survey.
    Additionally, we will have: Debbie Hughes, representing the 
New Mexico Association of Conservation Districts; Tim Carlson, 
representing the Tamarisk Coalition; and John Marshall, 
assistant director of the Colorado Department of Natural 
Resources, who will be testifying in support of S. 1236. Holly 
Stoerker, executive director of the Upper Mississippi River 
Basin Association, will be testifying in support of H.R. 961.
    The subcommittee has also received a letter from Senator 
Allard in support of S. 1236, written testimony from the Middle 
Rio Grande Conservancy District and the city of Albuquerque on 
S. 213, and the Tom Green County Water Control Improvement 
District No. 1 in support of H.R. 856.
    The first bill I would like to mention today is S. 213. A 
similar measure, S. 2696, was introduced last Congress by 
Senator Bingaman, and it is my understanding that an amended 
version of S. 2696 passed the Senate late last year, but left 
no time for action by the House. I understand there were some 
changes made and I look forward to hearing today whether or not 
those concerns have been addressed.
    Also before the subcommittee this afternoon are two 
measures dealing with eradication of tamarisk or salt cedar. 
The two final bills before the subcommittee today are those 
which have already passed the House, H.R. 856 and H.R. 961.
    I welcome the testimony of the witnesses here today. We do 
recognize that we have some votes that I do not think we have 
scheduled with a time agreement yet, but we would anticipate 
perhaps some interruptions this afternoon. So we appreciate 
everyone bearing with us.
    At this point in time then I would like to invite up 
Congressman Kind and Congressman Stenholm. Gentlemen, thank 
you.
    If any of the members would like to make any opening 
statements this afternoon, I would entertain them.
    Senator Bingaman.
    [The letter from Senator Allard follows:]
                                                 November 17, 2003.
Hon. Pete V. Domenici,
Committee and Natural Resources, U.S. Senate, Dirksen Senate Office 
        Building, Washington, DC.
    Dear Mr. Chairman: As you know, the western United States continues 
to suffer through a sustained period of unprecedented drought. Large 
portions of my home state of Colorado are in the midst of a fourth year 
without adequate moisture. While state efforts to provide the 
appropriate relief continue, the federal government must act 
cooperatively with the states to bolster drought mitigation efforts 
where such federal involvement is appropriate. Appropriate action 
includes federal aid in dealing with invasive plant species--one of the 
largest culprits of water theft.
    The expansion of a variety of invasive plant species known as 
phreatophytes threatens more than the natural plant mix and wildlife 
forage. Phreatophytes, including the Salt Cedar (or Tamarisk) consume 
vast amounts of water and degrade the natural environment. For example, 
the Tamarisk is known to consume more than 200 gallons of water a day 
and may lead to high salinity levels in rivers and soil. They also 
alter the natural course of the river through a root system that grows 
some 250 feet down into the ground.
    I commend your efforts to introduce legislation that creates new 
partnerships and funding to eradicate these invasive plants. Senator 
Campbell also deserves praise for his efforts as well. I am a strong 
supporter of the legislation and look forward to providing you with any 
assistance you should require. By working together, we can develop a 
common sense approach to tackling the water theft by invasive plant 
species and ultimately restoring the health of our riparian systems.
            Sincerely,
                                              Wayne Allard,
                                             United States Senator.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Madam Chairman, let me just make a very 
brief statement. First, I welcome the two Congressmen here and 
support their efforts. I wanted to make a short statement about 
S. 213 that you mentioned. This is a bill that Senator Domenici 
and I have introduced. We did make some changes in it. It is 
intended to allow the city of Albuquerque to proceed with its 
plans to develop a biological park along the banks of the Rio 
Grande near downtown Albuquerque.
    The city had acquired two parcels of land from the Middle 
Rio Grande Conservancy District in 1997 for the purpose of 
creating this park. Its plans were interrupted, however, when 
the Bureau of Reclamation later asserted that it held title to 
these two parcels, as well as various other property believed 
to be owned by the Middle Rio Grande Conservancy District.
    The issue of title is in litigation and S. 213 does not 
interfere with that litigation. It merely directs the Bureau of 
Reclamation to transfer any interest it is determined to have 
in the two properties to the city of Albuquerque. As I 
understand it, the city already occupies these two parcels and 
it is considered to be surplus to the needs of the Middle Rio 
Grande Project.
    Obviously, I am disappointed that the Bureau of 
Reclamation, through its testimony, appears to continue to 
oppose what we are trying to do. I do not know that that is 
helpful. I think this should be an easy matter to resolve and I 
think the legislation Senator Domenici and I have proposed is a 
good resolution. That is the main issue I wanted to address, 
Madam Chairman.
    Senator Murkowski. Thank you.
    Senator Campbell.

          STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, 
                   U.S. SENATOR FROM COLORADO

    Senator Campbell. Madam Chairman, I wanted to speak to the 
two tamarisk bills. Would it be better to do that now or when--
--
    Senator Murkowski. If you would like to do it now.
    Senator Campbell. All right. I will try and make it brief, 
too.
    I want to welcome Congressman Kind and my old colleague 
Charlie Stenholm. It is nice to see you, Congressman Stenholm. 
We spent some years together on the Ag Committee when I was on 
the House side, and when I came over here some accused me of 
moving to the lower body, as you might guess. But it is always 
nice to see him.
    Also, two of our witnesses from Colorado are going to be 
talking about this tamarisk problem, Tim Carlson and Mr. John 
Marshall, and I appreciate them being here, too.
    You know, I was very unfamiliar with what this weed is, 
very frankly, before it was brought to your attention. I am 
sure Senator Domenici has probably had more experience with it. 
But I was absolutely amazed, the amount of water this noxious 
weed uses. It is not a natural species. It was imported 
originally to the United States from the Orient as an 
ornamental tree.
    It has a terrific appetite. Primarily it uses a significant 
amount of water, far more than I ever realized, than I think 
most people do.
    We are experiencing a terrible drought in the West as you 
probably know, Madam Chairman. People have been selling their 
farms or ranches. People who have been ranching for generations 
have had to give that up. Many of us, including our little 
ranch, we had to drill new wells. Our wells went dry. Some 
people are simply going out of business.
    Now, we cannot blame all that on the tamarisk obviously, 
but it has certainly been one of the contributing factors. 
Studies have found that this tamarisk, which is now in 11 
Western States, uses from 2 to 4.5 million acre-feet of water a 
year, 2 to 4.5 million acre-feet of water a year that we simply 
cannot afford to lose.
    To put it in perspective, several other States as well as 
Colorado and the Republic of Mexico, they are delivered 10 
million acre-feet from Colorado's rivers and streams, including 
the mighty Colorado itself. California is allotted 4.5 million 
acre-feet of water per year. That means that this weed is 
eating up about the same amount of water under the interstate 
compacts that California gets out of the Colorado Upper Basin, 
Lower Basin compacts.
    This bill that I introduced seeks to get that tamarisk 
problem under control. It requires the Secretary of the 
Interior to assess the extent of the tamarisk invasion, 
identify where it is and how it affects each State, and 
estimate the cost to restore the land and to establish a State 
tamarisk assistance program to provide States the needed 
funding to control and eradicate the tamarisk. Grant funds will 
be distributed to States in accordance with the severity of the 
problem in each State.
    Water is a very, very scarce resource, as you know, Madam 
Chairman. So I am also a prime co-sponsor of Senator Domenici's 
bill. As I understand, it basically sets up a study that 
parallels what I am trying to do. I guess in my bill I am just 
trying to get the money to the States a little faster than in 
Senator Domenici's bill, but I think we are both going the same 
direction on these two bills.
    Thank you for chairing this hearing.
    Senator Murkowski. Thank you.
    Senator Domenici.

       STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR 
                        FROM NEW MEXICO

    The Chairman. Thank you very much.
    I heard most of Senator Bingaman's statement and I do not 
want to repeat if I can help it. I want to particularly say 
that I am glad to see Debbie Hughes as one of the panelists. 
She has been an active advocate for salt cedar control. I look 
forward to her comments. It is also a pleasure to see Mike 
Gabaldon, a New Mexican serving in Washington at the Bureau.
    The Western United States, while we have been gripped by a 
drought with its devastating impact on every kind of water use, 
has the presence of these invasive plants like the salt cedar. 
They have helped to exacerbate the situation. These plants also 
move into newly exposed areas in dry reservoirs and thus, 
threaten our ability to recover by decreasing our water storage 
capacity. Even in wet years, these invasive plants have 
negative impacts. They invade agriculture, grazing land, 
etcetera.
    Two of the bills we are going to discuss today were 
introduced to address the invasive plants, one Senator 
Campbell's, one mine. Mine is a demonstration bill to get on 
with it, taking a piece of the problem and solving it. The 
Senator's is more long-range. I am for combining the bills 
ultimately and hopefully getting the best possible bill for 
these invasive plants and their removal as possible.
    I ask the remainder of my remarks on that be made a part of 
the record and conclude with a brief statement about the third 
bill, S. 213. Senator Bingaman spoke most about it, and I will 
merely say that the Albuquerque Biological Park Title 
Clarification Act is absolutely necessary. I know the 
administration has concerns--quiet title action. I have 
received a letter from the Middle Rio Grande Conservancy 
District, and we have a statement from the mayor of 
Albuquerque, both supporting our bill.
    I look forward to working with the administration to 
address any of the concerns that they might raise here today, 
because we should proceed with this bill. I agree that it was 
introduced for the right reasons, Senator Bingaman joined in it 
for the right reasons, and we ought to join together in seeing 
that it gets done.
    I ask that any remarks that are here that I did not give be 
included in the record and I yield at this time. Thank you very 
much, Madam Chairman.
    [The prepared statement of Senator Domenici follows:]
       Prepared Statement of Hon. Pete V. Domenici, U.S. Senator 
                            From New Mexico
    I am grateful to Senator Murkowski for holding this hearing. Three 
of the bills to be discussed today matter greatly to the State of New 
Mexico.
    I am particularly glad to see Debbie Hughes here as one of the 
panelists. She has been an active advocate for salt cedar control and I 
look forward to her comments. It is also a pleasure to see Mike 
Gabaldon--a New Mexican serving here in Washington at the Bureau of 
Reclamation.
    The Western United States has been gripped by drought with its 
devastating impact on agriculture and municipal water supplies. The 
presence of invasive plants, like Salt Cedar, has exacerbated these dry 
conditions. These plants also move into newly exposed areas in dry 
reservoirs and thus threaten our ability to recover by decreasing our 
water storage capacity.
    The dry conditions have also greatly increased fire danger. I 
personally witnessed the devastation of a fire that ravaged the center 
of the City of Albuquerque. The primary fuel and the greatest hindrance 
to fighting the fire was Salt Cedar.
    Even in wet years these invasive plants have negative impacts. They 
invade into agriculture and grazing land and they displace native 
vegetation with its scenic, historic and environmental benefits.
    Two of the bills we will discuss today were introduced to address 
the control of these invasive plants.
    The first of these is S. 1516, the ``Salt Cedar Control 
Demonstration Act'' which I introduced in July with my colleague 
Senator Campbell. This bill authorizes the Department of the Interior 
to assess the full severity of this infestation. The Bureau is then 
directed to establish a series of research and demonstration programs 
to develop and test control strategies for this non-native species.
    The second, S. 1236 ``The Tamarisk Control and Riparian Restoration 
Act'' was introduced by several of my western colleagues. Their bill 
addresses fundamentally the same issue but directs the Secretary of the 
Interior to create a grant program to provide funding to states for 
Tamarisk eradication.
    My staff and I have reviewed much of the historical efforts and 
research on control of these plants. As a result, I am concerned that 
we have made large federal, state and private investments without a 
fully developed management strategy.
    I believe we can move forward in an environmentally sensitive 
manner, that we can save water, that we can reduce fire danger and we 
can improve range conditions, but at the same time, we must do so in a 
smart and cost-effective manner.
    That is why I have sponsored a bill leading to large, long-term 
demonstration projects. I believe this approach will develop and test 
management strategies to guide our long-term federal and state 
investments in Salt Cedar control.
    These bills have received support from the State of New Mexico 
Department of Game and Fish, the large irrigation districts impacted by 
Salt Cedar infestation in New Mexico and environmental groups such as 
the Alliance for the Rio Grande Heritage.
    As we hear from our panel, I look forward to hearing about the 
successes, the challenges and possible future approaches we can take to 
manage these invasive species.
    The third bill of importance to the State of New Mexico is S. 213, 
the Albuquerque Biological Park Title Clarification Act. I know the 
Administration has concerns about the impact this bill will have on the 
pending litigation related to the Middle Rio Grande Conservancy 
District's quiet title action. I have received a letter from the Middle 
Rio Grande Conservancy District and we have a statement from the Mayor 
of Albuquerque both supporting this bill. I look forward to working 
with the Administration to address any of the concerns they might raise 
here today.

    Senator Murkowski. Thank you, and those remarks will be 
included in the record. Thank you, gentlemen.
    With that, Congressman, again welcome to the subcommittee. 
Glad to have you here. At this time why do we not proceed with 
Congressman Kind.

        STATEMENT OF HON. RON KIND, U.S. REPRESENTATIVE 
                         FROM WISCONSIN

    Mr. Kind. Thank you, Madam Chairman and members of the 
committee. I appreciate your interest in the legislation that 
we are here to talk about today, H.R. 961, and I would 
encourage your support of the bill. I want to also thank your 
staff, who has worked closely with mine in regards to 
scheduling this. I want to give a special thanks to my staff, 
who has put in a lot of time and effort in order to coordinate 
this legislation and work on the bipartisan support that it has 
received.
    This has passed the House of Representatives on two 
previous occasions, both in the 107th with unanimous consent 
and now in the 108th earlier this year by a 411 to 13 margin. 
Bipartisan support of this magnitude is a rarity these days, 
unfortunately, but I think it speaks to the effort that many of 
us have been putting into this legislation.
    I also want to thank the members of the bipartisan 
Mississippi River Caucus, who has been very involved with this 
legislation too and have expressed a lot of support and put a 
lot of energy of their own in crafting the bill.
    The bill itself is designed to enhance the existing 
monitoring programs on the Upper Mississippi River Basin and 
provide reliable, scientific data for targeting future nutrient 
and sedimentation reduction efforts. I mentioned the bipartisan 
support that it has received in Congress. I think it is a 
recognition of the importance of the Mississippi River, the 
river basin, the entire watershed area, in regards to middle 
America.
    I believe it is one of the great neglected natural 
resources that we have in this country. It is nothing short of 
a national treasurer, the Upper Mississippi River Basin, 
particularly the Upper Midwest, and the river that provides the 
fertile plains for agriculture that we have there, the primary 
drinking source for about 22 million Americans. It is also 
North America's largest migratory route, with about 40 percent 
of the waterfowl species using that as their route during the 
annual migration patterns every year.
    The Upper Mississippi region benefits from the river and 
the basin with a $1.2 billion recreation impact, a $6.6 billion 
economic impact. One of the unique features is its multiple use 
function, not only for river navigation with the barge traffic 
going up and down delivering goods to market, but the 
recreation and the various other economic development 
activities that the river provides.
    You are also going to hear testimony shortly from Holly 
Stoerker, who is the executive director of the Upper 
Mississippi Basin Association. That is a collaboration of 
mainly the five Upper Mississippi States who are working in 
partnership much closer in addressing the needs of the river 
basin.
    You will also hear from Bob Hirsch, who is with USGS, which 
is the principal lead agency envisioned in this legislation.
    The purpose of the bill again is to develop a coordinated 
public-private approach to reducing nutrient and sediment 
losses in the Mississippi River Basin. It is one of the great 
threats that the river itself faces. You talk to any of the 
scientific experts who have devoted a lot of time in regards to 
the preservation and protection of this ecosystem, they all 
point to one of the great threats that is facing it and that is 
the amount of sediments and nutrients flowing into the river 
basin, destroying wildlife habitat, affecting the quality of 
water supplies and the natural habitat that relies upon it for 
its existence.
    This bill relies on existing Federal, State, and local 
programs. The bill establishes a water quality monitoring 
network and an integrated computer modeling program. These 
monitoring and modeling efforts will provide the baseline data 
needed to make scientifically sound and cost-effective 
decisions.
    Additionally, the bill contains provisions to protect the 
privacy of personal data that is collected in connection with 
the monitoring and the assessment activities. The bill 
recognizes the need for scientific research on a sub-basin 
scale, enables sensible and effective strategies to be 
developed, and ensures that more local and regional support 
will be gained for those efforts.
    The bill also is consistent with the recommendations made 
with the Federal Inter-Agency Mississippi River, Gulf of Mexico 
Watershed Nutrient Task Force that released the report in 
January 2001. Part of the recommendations in that report is 
having a much more extensive comprehensive monitoring and 
computer modeling program in place along the basin, 
particularly the Upper Mississippi region, so we can better 
track to nutrient and sediment flows going in and obviously 
flowing south and having an effect with regards to the hypoxia 
area that has been created down in the Gulf of Mexico.
    A number of States have also weighed in on the need to 
increase monitoring and modeling efforts throughout the Upper 
Mississippi Basin. In a October 23, 2001 a letter to the Bush 
administration officials, six governors of States bordering the 
Mississippi River wrote, and I quote: ``A monitoring effort 
conducted jointly by USGS and the States is required within the 
basin to determine the water quality effect of the actions 
taken and to measure the success of efforts on a sub-basin and 
project level.''
    That is exactly the intent of this legislation, what we are 
trying to accomplish with this bill. Again, with the bipartisan 
support that it has enjoyed on the House side, I am hoping it 
will receive similar consideration here in the Senate. I can 
sit here and honestly testify that I am not aware of any 
individual or group that is in opposition to this legislation.
    Bob Hirsch will be testifying. I do not need to speak for 
him, but the issues that he raised in previous testimony in the 
House I think we have addressed fully. But you can hear from 
him specifically.
    Thank you again for the opportunity to address the 
committee on this important piece of legislation, and we hope 
for your support. Thank you.
    [The prepared ststement of Mr. Kind follows:]
       Prepared Statement of Hon. Ron Kind, U.S. Representative 
                             From Wisconsin
    Thank you Madam Chairman and members of the Subcommittee for the 
opportunity to comment on H.R. 961, the Upper Mississippi River Basin 
Protection Act. This bill was designed to enhance existing monitoring 
programs on the Upper Mississippi River Basin, and provide reliable, 
scientific data for targeting future nutrient and sediment reduction 
efforts. I'm pleased to note this legislation has repeatedly received 
broad support in the House--passing that body in the 107th Congress 
with unanimous consent, and again in the 108th by an overwhelming vote 
of 411-13.
    The Upper Mississippi River system, whose tributaries and basin 
encompass much of Wisconsin, Minnesota, Iowa, Illinois, and Missouri, 
is widely recognized as one of our nation's great multi-use natural 
resources. While the Mississippi River and its tributaries provide 
drinking water to approximately 22 million Americans, the system's 
1,300 navigable miles transport millions of tons of commercial cargo 
via barges. In addition, 40% of North America's waterfowl use the 
wetlands and backwaters of the main stem as a migratory flyway, 
illustrating the environmental significance of the system as well as 
recreation capabilities. Overall, the Upper Mississippi River Basin 
provides $1.2 billion annually in recreation income and $6.6 billion to 
the area's tourism industries.
    Unfortunately, high sediment and nutrient levels threaten the 
health of the river system and the vast recreational, agricultural, and 
industrial activities it supports. Sediment fills the main shipping 
channel of the Upper Mississippi and Illinois Rivers, costing over $100 
million each year to dredge. Nutrient inputs degrade water quality in 
the Upper Mississippi River system and impact far downstream to the 
Gulf of Mexico.
    As a basis for making effective decisions for improving water 
quality, accurate data must be available. Building the nutrient and 
sediment monitoring system that provides this data will require 
extensive communication and coordination between government agencies at 
the federal, state, and local levels, as well as other stakeholders. By 
utilizing existing monitoring programs to the maximum extent possible, 
H.R. 961 builds upon existing efforts by authorizing the U.S. 
Geological Survey (USGS) to coordinate and integrate these efforts, 
expand where necessary, develop guidelines for data collection and 
storage, and establish an electronic database system to store and 
disseminate information. USGS would also establish a state-of-the-art 
computer modeling program to identify significant nutrient and sediment 
sources, at the subwatershed level, to better target reduction efforts. 
In addition, H.R. 961 includes strong protections for the privacy of 
personal data collected and used in connection with monitoring and 
modeling activities.
    H.R. 961's goal of coordinating and collecting scientific research 
on a sub-basin level will enable sensible and effective strategies of 
minimizing sediment and nutrient runoff far beyond the five-state 
region, and ensure that more local and regional support will be gained 
for those efforts.
    Furthermore, the sub-basin approach of The Upper Mississippi River 
Act fits with the recommendations of the federal interagency 
Mississippi River/Gulf of Mexico Watershed Nutrient Taskforce, released 
in a report to Congress in January of 2001. In the ``Action Plan for 
Reducing, Mitigating, and Controlling Hypoxia in the Northern Gulf of 
Mexico,'' the Task Force notes that water quality throughout the 
Mississippi River Basin has been degraded by excess nutrients, and that 
most states in the basin have significant river miles impaired by high 
nutrient concentrations that can be a human health hazard. That Action 
Plan also outlines a series of short- and long-term goals, including 
sub-basin coordination and implementation of sediment and nutrient 
reduction efforts, and expanding existing monitoring and modeling 
efforts to identify additional management actions to help mitigate 
nitrogen losses to the Gulf.
    In crafting this legislation, I have worked closely with farmers, 
the navigation industry, sporting groups, environmental organizations, 
and government agencies throughout the region. As co-chair of the 
bipartisan Upper Mississippi River Basin Congressional Task Force, I 
have also labored to build consensus among regional legislators and 
governors on how best to approach the natural resource challenges of 
the basin.
    In response to my efforts, a number of states have signaled their 
support for increasing monitoring and modeling efforts throughout the 
Upper Mississippi River Basin. In an October 23, 2001, letter to Bush 
Administration officials, six Governors of states bordering the 
Mississippi River wrote that, ``. . . a monitoring effort conducted 
jointly by the U.S. Geological Survey and the states is required within 
the basin to determine the water quality effects of the actions taken 
and to measure the success of efforts on a sub-basin and project 
level.''
    As this Subcommittee knows well, water quality problems in the 
Mississippi River Basin cross traditional state and administrative 
boundaries. Solving these problems requires a coordinated and 
cooperative approach between the federal, state, and local agencies and 
groups working throughout the region. H.R. 961 represents a common-
sense move toward building the scientific foundation necessary to 
remedying nutrient and sediment problems in the region, and may 
ultimately serve as a model for future watershed and basin initiatives 
in other parts of the nation.
    Thank you for the opportunity to share my remarks on this important 
legislation. I appreciate your consideration and I urge the 
Subcommittee's support.

    Senator Murkowski. Thank you. It is always nice to find 
there is something that nobody disagrees with. We will see if 
that is the case.
    Congressman Stenholm, welcome.

            STATEMENT OF HON. CHARLES W. STENHOLM, 
                 U.S. REPRESENTATIVE FROM TEXAS

    Mr. Stenholm. Thank you, Madam Chairman. I thank this 
committee for allowing me the privilege of testifying before 
you today.
    I commend this committee for taking such swift action on 
H.R. 856, legislation I introduced on February 13 of this year. 
The bill extends the repayment period on a loan contract 
between the Tom Green County Water Control and Improvement 
District No. 1 and the Department of the Interior and the 
Bureau of Reclamation. The district has an outstanding loan for 
construction of an irrigation canal and the remaining balance 
is approximately $2.4 million.
    These farmers in the water control district have made 
diligent efforts to make timely payments on the contract and 
have paid about $1.5 million of the original debt owed despite 
the fact that they have yet to receive a fair return on their 
investment. The increased annual payments place additional 
financial burdens on the water control district. However, the 
Bureau of Reclamation cannot extend the loan repayment contract 
without approval from Congress.
    Because of this, I introduced H.R. 856 to get this loan 
restructured and provide the much-needed financial relief for 
these farmers. This legislation would allow the Secretary of 
the Interior to revise the repayment contract by extending the 
period authorized for repayment of construction costs of the 
canal from 40 to 50 years.
    In west Texas there is virtually nothing of higher daily 
concern than the availability of water and, much like many 
parts of the United States in recent years, Texas has been 
devastated by drought. As a result, these farmers have received 
a full year's allocation of irrigation water only 50 percent of 
the time. Moreover, for the other 50 percent of the time they 
received either less than the annual allocation or no 
irrigation water at all, but still have made their payments.
    Despite that, payment on the debt has never been forgiven, 
even in years when they received no water. Deferments have been 
granted several times. However, those payments still have to be 
made, which the farmers fully intend to do.
    Compounding the problem, these deferments were added to the 
remaining loan balance and the payments continue to increase 
annually because the original contract termination date does 
not change.
    I am happy to report that these west Texas farmers have 
been doing their part to meet their responsibilities and I am 
glad Tom Green County Commissioner Clayton Friend brought this 
issue to our attention. I am also very appreciative of the 
consideration of this committee which you are giving it. At 
this time I would like to submit Mr. Friend's testimony for the 
record, and I am glad to do so on his behalf.
    I have high hopes that we will be able to get this 
legislation to the President very soon.
    Additionally, I would commend this committee for taking 
such swift action on S. 1516, the Salt Cedar Control 
Demonstration Act introduced by Senator Domenici. Congressman 
Steve Pierce and I have worked together to introduce companion 
legislation in the House of Representatives. The effects of 
salt cedar and Russian olive invasion can be seen in more than 
half the continent of the United States. As you may know, I 
represent the 17th District of Texas, central west Texas. As 
much of America, drought has left its mark. During the 
abnormally dry conditions, salt cedar proliferated in this area 
when receding water left ideal conditions for growth of this 
invasive plant.
    The devastating results evident throughout the Upper 
Colorado River Basin have become more acute in recent years as 
this invasive species has severely diminished the availability 
of fresh water supply in west Texas. I am convinced this 
legislation moves in the right direction toward real solutions 
to the salt cedar and Russian olive invasion. After all, it 
will take integrated control and management practices to 
significantly deter further spread of this non-native species. 
The fact remains, to minimize the wasteful reduction in our 
Nation's water supply Congress must take immediate action to 
implement a control plan for salt cedar.
    I thank you for allowing me to testify and I hope that you 
can give good consideration to both of these matters. Thank 
you, Madam Chairman.
    Senator Murkowski. Thank you.
    Congressman Kind, with the legislation that you have 
introduced you have highlighted the benefits for industry and 
transportation and the environment. The Mississippi and the 
Missouri systems are frequently the subject of conflict over 
competing needs. Can you help us understand how this monitoring 
program will help resolve rather than create additional 
conflict over the shared water resources of the Upper Midwest?
    Mr. Kind. Well, Madam Chairman, I appreciate the question. 
is all basically getting the scientific research in place so we 
can better track and monitor the sediment and nutrient flows 
that are entering the Upper Mississippi Basin and obviously 
affecting everything flowing south. It is something that the 
States, the Governors, the various task forces that have been 
formed to address the ecosystem needs of this valuable river 
basin have been calling for for some time.
    I do not view this legislation as providing any type of 
conflict between the Mississippi itself or the Missouri River. 
If there is one issue that perhaps we can talk about, it is the 
extent of the legislation. It is limited to just the Upper 
Mississippi River States, the five Upper Mississippi States. 
There has been some discussions already within my office with 
other groups and organizations of this serving as a model for 
an extension in other watershed areas, but especially 
throughout the entire Mississippi River Basin.
    This approach is kind of the baby step of trying to get it 
in place initially to see how well it works before we talk 
about extending it throughout the entire river basin area, 
which I think is also necessary and should occur in the future, 
too. But right now this is kind of a limited approach to try 
the get the good science in place so we can start doing the 
monitoring and establish the computer models in the Upper Miss 
region, which also will benefit the lower Mississippi Basin.
    I think it is a practical approach, given the limitation of 
resources that we have right now in the budget and the cost-
share arrangements with the various States that are required 
with the legislation.
    Senator Murkowski. I thank you for that response.
    Congressman Stenholm, the Tom Green County Water Control 
Improvement District has apparently struggled with their water 
supply for a number of seasons, and of course we are sensitive 
to the needs of the farmers. It is my understanding that the 
administration is supportive of this legislation. Do you have 
any specific requests or suggestions for the administration to 
guide their additional activities in the farming community in 
the Tom Green County? Since you have the floor here, you may as 
well provide them with whatever input you have.
    Mr. Stenholm. Yes. Yes, ma'am, surely would, Madam 
Chairman. That is why I mentioned in my statement integrated 
approaches. I think we are looking all throughout this region, 
because the San Angelo area in this particular part of west 
Texas has a terrific water shortage. We are talking about if 
the good lord does not send the rain within the next couple of 
years that we are going to be really struggling for drinking 
water.
    There are many projects going on right now with the Corps 
of Engineers looking at a study that is looking where we might 
find the water and bring it to it. But on specifically the 
purpose of the hearing today, we have a mesquite control 
project that is ongoing in Texas that has been partially funded 
by the State of Texas, partially funded by the individual 
producers within this area, and partially funded by the Federal 
Government, and that was part of the farm bill, the EQIP 
program that passed last year.
    The key to any of these type projects is getting the 
support of the producers within the area. There has been a 
tremendous amount of effort going on the part of the ranchers 
in that area to gain the kind of support of the individual 
ranchers required to not only start the project--now I am 
talking about mesquite--but then also the maintenance that is 
going to be required, because if you do not have a regular 
maintenance program in which you commit long-term to how you 
are going to, once you get the mesquite under control, that you 
will then continue to keep it under control as part of a 
regular conservation program, which is part of the farm bill.
    The salt cedar is exactly the same as mesquite and I think 
we are using the same model, and I feel quite certain that, 
even though here we are talking about the Interior and the 
Bureau of Reclamation, there is now a growing spirit of 
cooperation between USDA and all of the Federal agencies, 
recognizing that we can do a better job with less of our 
taxpayer dollars by having a cooperative venture between 
government and the local ranchers with the proper role of the 
State.
    So yes, I would encourage that spirit of cooperation to 
continue, which we have seen, ironically, in parts of my 
district on flood control, while at the same time in other 
areas we are talking about doing something about the drought, 
and it is only 120 miles between the two.
    Senator Murkowski. Thank you.
    Senator Campbell, any questions for either Congressmen Kind 
or Stenholm?
    Senator Campbell. It would not make much sense, but I read 
somewhere that mesquite is actually spread in Texas by cattle, 
that they eat the mesquite, that the beans are not digested or 
something, and so they are spread and then they grow. You also 
heard about our salt cedar bills and our tamarisk bill. Do you 
know, do cattle eat that as well as mesquite?
    Mr. Stenholm. I do not believe that the salt cedar, the 
cattle eat that. I wish they did. But they do not eat the 
mesquite, but they like the mesquite beans. And when you have a 
drought period, the mesquite tree puts out an inordinate amount 
of mesquite beans, and many times that is all that has been 
able to get our cattle through a drought, because we feed them. 
And unfortunately, the seeds do pass through the animal and 
then do get spread, and that is part of the invasive species 
that we are trying now to deal with.
    Senator Campbell. The only reason I knew something about 
that is I read the history of the King Ranch one time and it 
mentioned that problem with mesquite. Thank you.
    Thank you, Madam Chairman.
    Senator Murkowski. Thank you.
    Gentlemen, thank you for your testimony this afternoon.
    Mr. Stenholm. Thank you.
    Senator Murkowski. The next panel we will bring up: Mr. 
Gordon Brown, the Invasive Species Coordinator from the U.S. 
Department of the Interior; Mr. Michael Gabaldon, Director of 
Policy Management, Bureau of Reclamation; and Mr. Bob Hirsch, 
the Associate Director of the U.S. Geological Survey for the 
Department of the Interior.
    Good afternoon, gentlemen. Mr. Brown, why do we not start 
with you, please.

  STATEMENT OF A. GORDON BROWN, INVASIVE SPECIES COORDINATOR, 
LIAISON TO THE NATIONAL INVASIVE SPECIES COUNCIL, DEPARTMENT OF 
                          THE INTERIOR

    Mr. Brown. Madam Chairman and members of the committee, I 
am Gordon Brown, Invasive Species Coordinator for the Secretary 
of the Interior. Dr. Jim Tate was looking forward to testifying 
today, but I am sorry to report that while helping a neighbor 
stow his canoe on Thursday as the winds began to blow he broke 
his leg after a fall. He is still in the hospital with a broken 
femur.
    I want to thank you for providing the Department of the 
Interior the opportunity to testify before you regarding these 
bills which seek to promote the assessment, management, and 
restoration after control of salt cedar or tamarisk and Russian 
olive. The Department supports the goals of both S. 1236, the 
Tamarisk Control and Riparian Restoration Act, and S. 1516, the 
Salt Cedar Control Demonstration Act.
    The Department is currently working with partners to 
develop an integrated approach to management of tamarisk and we 
are committed to working with you to ensure that tamarisk 
control efforts are efficient and effective. We are also 
concerned about the cost of the proposed programs and note that 
they would have to compete with existing programs for limited 
resources.
    Let me begin by providing you with some background on this 
issue, followed by brief comments on the legislation. The 
Department is one of the Nation's principal conservation 
agencies, charged with protecting and providing access to our 
Nation's natural and cultural heritage. Today departmental 
authorities provide for the management and protection of 
resources in an area of the West now increasingly under 
pressure as population densities mushroom and water resources 
are increasingly stressed. This region of the country also has 
seen the greatest impact from the species addressed in this 
legislation.
    Russian olive is a hearty, fast-growing tree native to 
Europe and Western Asia. It is shade-tolerant and grows well in 
a variety of soil and moisture conditions and, while it is 
primarily found in the West, it is also present in the East. 
Its large seeds result from trees that mature very early.
    Tamarisk comprises a suite of several species which also 
hybridize in the United States. They have been imported for use 
as windbreaks and erosion control plantings and now cover 
approximately 1.6 million acres of riparian lands within all 
the 17 Western States as far north as Montana. It rapidly 
produces dense biomass and suppresses native plant seed 
germination and seedling growth, spreading widely by overbank 
flooding that can transport millions of tiny seeds.
    Limited studies suggest that dense tamarisk stands can 
utilize more water on an annual basis than native cottonwood-
willow plant communities. There can be more total surface area 
on the leaves of tamarisk plants than on the cottonwood and 
native shrubs growing in a given area and thus tamarisk 
continues--and tamarisk continues to release water through the 
pores in its leaves during midday, when others have shut down 
that process.
    In addition, tamarisk growing in a streambed can also slow 
the water flow, thus allowing additional time for percolation 
of the water into the alluvium. Water released for irrigation 
purposes from an upstream reservoir may thus not get to its 
intended destination when tamarisk is blocking the channel.
    The growing abundance of tamarisk along Western rivers has 
led resource managers to seek to control it in order to, one, 
increase the flow of water in streams that might otherwise be 
lost to evaporation and transpiration and percolation; to 
restore the native vegetation along the banks and flood plains 
of those rivers; and to reduce hazardous fuels; and to improve 
wildlife habitat.
    As you know, the Department through the Bureau of 
Reclamation has a significant role in the distribution of water 
throughout much of the West and Southwest. Because of its 
significant impact on water resources alone, the Department has 
a strong interest in the control of tamarisk as part of its 
management efforts. For this reason, much of the remainder of 
my statement will focus on control efforts for the species.
    Current departmental programs and activities focus control 
and management efforts for tamarisk on areas where the resource 
is at risk. Some areas are so heavily infested that expert 
strike teams have been used to remove the dense vegetation. For 
example, the U.S. Fish and Wildlife Service is in the process 
of establishing such strike teams modeled after the National 
Park Service's Exotic Plant Management Teams.
    All of these activities are conducted with observation of 
comprehensive conservation and planning, and that is to take 
account for the highest priority waterfowl, endangered species, 
or other wildlife habitat values. This early detection and 
rapid response model is receiving increased attention as a 
means of preventing the spread and establishment of tamarisk 
and restoration and ongoing monitoring to prevent reinfestation 
are essential.
    Departmental land management operations focus significant 
funding for tamarisk control on refuges, national parks and 
monuments, along irrigation canals under the jurisdiction of 
the Bureau of Reclamation. Bosque del Apache National Wildlife 
Refuge has served as a demonstration laboratory for control and 
management of tamarisk, including research and development of 
innovative methods for restoring native riparian vegetation and 
working with nearby private landowners and Indian tribes to 
implement them.
    Biomass removal, intermittent flooding, chemical 
treatments, and other mechanical methods have all been tested 
and measured for effectiveness and efficiency. Cooperating with 
researchers from nearby universities and other research 
institutions such as the Los Alamos National Laboratory, 
scientists and land managers have also tested methods to reduce 
the likelihood of later reinfestation.
    Various other programs within the Department seek to 
promote partnership on a broad basis. One of them includes the 
challenge cost share components of Bureau of Reclamation, 
National Park Service, and Fish and Wildlife Service. The Fish 
and Wildlife Service's Partners for Fish and Wildlife Program 
promotes private landowner cost share projects, as does BLM in 
its programs.
    USGS scientists can help identify site potential for water 
salvage, revegetation and wildlife value and develop protocols 
and measures for prioritizing sites for control or 
revegetation. The USGS also has partnerships with NASA, the 
Tamarisk Coalition, and these are aimed at providing mapping 
information to identify new invasions.
    In conclusion, I want to assure the committee that the 
Department is prepared and committed to identifying, assessing, 
and acting to curb the economic and ecological impacts of 
tamarisk and Russian olive in the West. We will continue to 
work with our partners. Tamarisk is risky business, however. 
While providing some cover for wildlife in the arid Southwest, 
absent widespread control and restoration efforts to eliminate 
it we will continue to be frustrated in our science and 
conservation mission to assure future use of our Nation's 
natural resources.
    We share the committee's concerns and offer to work with 
the committee to ensure that any legislation promotes an 
efficient and effective control strategy.
    Madam Chairman, this concludes my statement and I am happy 
to answer any questions that you might have.
    [The prepared statement of Mr. Tate, follows:]
Prepared Statement of Jim Tate, Science Advisor to the Secretary of the 
                  Interior, Department of the Interior
    Mr. Chairman and Members of the Committee, I am Jim Tate, Science 
Advisor to Secretary of the Interior Gale Norton. I want to thank you 
for providing the Department of the Interior (Department) the 
opportunity to testify before you regarding these bills which seek to 
promote the control and management of the invasive species like 
saltcedar, or tamarisk, and Russian olive. The Department supports the 
goals of both S. 1236, the Tamarisk Control and Riparian Restoration 
Act, and S. 1516, the Salt Cedar Control Demonstration Act. As 
discussed below, the Department is currently working with our partners 
to develop an integrated approach to management of tamarisk, and we are 
committed to working with you to ensure that tamarisk control efforts 
are efficient and effective. We are also concerned about the cost of 
the proposed programs, and note that they would have to compete with 
existing programs for limited resources.
    Let me begin by providing you with some background on this issue, 
followed by brief comments on the legislation.
                               background
    In the late 19th century, importation of several species of the 
genus Tamarix, commonly called tamarisk, and Russian olive came just as 
the Department began efforts to mediate land speculation and work 
closely with western governors and Indian tribes during the settlement 
of the West. The scientific expeditions of John Wesley Powell (which 
carried out the Geographical and Geological Survey of the Rocky 
Mountain region in 1874) set in motion the still-evolving paradigm that 
wise development informed by science provides the best hope for 
conservation and future use of our Nation's natural resources.
    The Department is one of the Nation's principal conservation 
agencies, charged with protecting and providing access to our Nation's 
natural and cultural heritage. Today, Departmental authorities provide 
for the management and protection of resources in an area of the West 
now increasingly under pressure as population densities mushroom and 
water resources are increasingly stressed. This region of the country 
also has seen the greatest impact from the species addressed in this 
legislation.
                          scope of the problem
    Russian olive is a hardy, fast-growing tree native to Europe and 
western Asia. It was introduced into the United States in the 19th 
century and was promoted as windrow and ornamental plantings. It grows 
along streams, in fields, and in open areas. It is shade-tolerant, and 
it grows well in a variety of soil and moisture conditions. While 
Russian olive is primarily found in the West, it also is present in the 
Eastern United States.
    Tamarisk comprises a suite of several species also imported to the 
United States in the 19th century for use as windbreaks and erosion 
control plantings. Several species of tamarisk and their hybrids now 
cover approximately 1.6 million acres of riparian lands within all the 
seventeen western states (as far north as Montana). The spread of 
tamarisk is often supported by its extreme flammability. It rapidly 
produces dense biomass and, absent flooding or heavy rains, causes 
deposits of salt on the soil sufficient to suppress native plant seed 
germination and seedling growth.
    Limited studies suggest that dense tamarisk stands can utilize more 
water on an annual basis than native cottonwood-willow plant 
communities. There can be more total surface area on the leaves of 
tamarisk plants than on cottonwood and native shrubs growing in a given 
area, and tamarisk continues to release water through the pores in its 
leaves during mid-day, whereas native cottonwoods shut this process 
down to conserve water. In addition, tamarisk growing in the streambed 
can also slow the water flow, allowing additional time for percolation 
of the water into the alluvium. Water released for irrigation purposes 
from an upstream reservoir may thus not get to its intended destination 
when tamarisk is blocking the channel.
    The growing abundance of tamarisk along western rivers has led 
resource managers to seek to control it in order to: (1) increase the 
flow of water in streams that might otherwise be lost to 
evapotranspiration and percolation; (2) restore native vegetation along 
the banks and floodplains of rivers and shorelines of reservoirs or 
lakes; (3) reduce hazardous fuels; and (4) improve wildlife habitat.
    As you know, the Department, through the Bureau of Reclamation, has 
a significant role in the distribution of water throughout much of the 
West and Southwest. Because of its significant impact on water 
resources alone, the Department has a strong interest in the control of 
tamarisk as part of its management efforts. For this reason, much of 
the remainder of my statement will focus on control efforts for this 
species.
            current departmental tamarisk management efforts
    Current Departmental programs and activities focus control and 
management efforts for tamarisk on areas with resources at risk. Some 
areas are so heavily infested that expert ``strike'' teams have been 
used to remove the dense vegetation. For example, the U.S. Fish and 
Wildlife Service (FWS) is in the process of establishing such ``strike 
teams,'' modeled after the National Park Service's (NPS) Exotic Plant 
Management Teams (EPMT), to combat invasive species, including 
tamarisk, in the Southwest. Areas vital to wildlife resources are 
cleared using mechanical, chemical, and physical means. Comprehensive 
conservation plans are used to guide these efforts and to indicate the 
areas of highest priority for waterfowl, endangered species, or other 
wildlife habitat values. In some cases, resources potentially at risk 
from tamarisk incursion are spot-treated early enough to keep the 
plants away, thus avoiding costly control efforts. This early detection 
and rapid response model is receiving increased attention as a means of 
preventing the spread and establishment of tamarisk.
                    place-based research and testing
    Departmental land management operations focus significant funding 
for tamarisk control on refuges, national parks and monuments, and 
along irrigation canals under the jurisdiction of the Bureau of 
Reclamation. Bosque del Apache National Wildlife Refuge has served as a 
demonstration laboratory for control and management of tamarisk, 
including research and development of innovative methods for restoring 
native riparian vegetation and working with nearby private landowners 
and Indian Tribes to implement them. Biomass removal, intermittent 
flooding, chemical treatments, and other mechanical methods have all 
been tested and measured for effectiveness and efficiency. Cooperating 
with researchers from nearby universities and other research 
institutions, such as the Los Alamos National Laboratory, scientists 
and land managers have also tested methods to reduce the likelihood of 
later re-infestation by tamarisk.
    Because of our role in the management of Western lands, we 
recognize the need for on the ground management of invasive species 
like tamarisk. However, we also recognize that there are areas where 
our control and restoration efforts will benefit from targeted research 
and development projects. More information is needed regarding the 
identification of areas or situations that would most likely respond to 
vegetative restoration projects once tamarisk removal has begun. Such 
information will also assist in the development of an integrated 
control and restoration plan a ``best practices'' plan that will 
provide land managers at all levels of government with options for 
removal, control, and restoration of lands infested with tamarisk.
                programs to promote private partnerships
    Various programs within the Department seek to promote partnerships 
with private landowners to address problem species like tamarisk. One 
initiative that addresses these issues is the cooperative conservation 
component of the challenge cost share programs in the Bureau of Land 
Management (BLM), NPS and FWS. These programs emphasize building 
partnerships for the conservation of natural resources and provide 
expanded opportunities for land managers to work with landowners and 
others to form creative conservation partnerships. This initiative 
recognizes that nature knows no jurisdictional boundaries and that, 
through these partnerships, the Department's land managers can work 
with landowners and other citizen stewards to tackle invasive species, 
reduce erosion along stream banks, or enhance habitat for threatened 
and endangered species. Among other things, in FY 2003 we have funded 
through this initiative projects that are aimed at the eradication and 
control of tamarisk, Russian olive, and other invasive plants, and 
reclamation of impacted lands.
    Another program is the FWS's Partners for Fish and Wildlife, which 
promotes private landowner cost-share projects for habitat restoration, 
including funds targeted for control of invasive plants and subsequent 
restoration. The Partners Program has worked with private landowners 
across the Nation to remove, burn, biologically control, and otherwise 
combat invasive plants on thousands of acres of wetlands and upland. 
Tamarisk control is a focus of technical and financial assistance in 
the Southwest.
    The control and management of tamarisk is part of the BLM's 
Partners Against Weeds Strategy Plan, BLM's Strategic Plan, and the 
National Fire Plan. The Partners Against Weeds program funds 
cooperative efforts with landowners to control invasive species. It 
also funds cooperative outreach and education projects with schools and 
local and county governments. In one important project, the BLM plans 
to work with several groups, including Clark County and the communities 
of Bunkerville and Mesquite in southern Nevada, to remove tamarisk 
along portions of the Virgin River floodplain. As I noted above, 
because of its properties, tamarisk poses a potential fire risk to 
homes, ranches, farms, and recreational facilities in the wildland-
urban interface.
    This project involves mechanical removal of tamarisk in the project 
area. The goal of the project is to move away from the tamarisk-fueled, 
high intensity fires that are now typical of the area concerned and to 
restore native vegetation, such as the relatively inflammable grasses, 
sedges, shrub communities, cottonwoods, and willows. Current planning 
calls for 95 acres of treatment in FY 2004, with an additional 100 
acres per year during the following 7-8 years.
    The NPS, U.S. Geological Survey (USGS), and the Bureau of 
Reclamation partner with the Agriculture Research Service and the U.S. 
Forest Service, both within the Department of Agriculture, and 
university scientists to develop and test biological control agents, 
including the beetles used for biological control of tamarisk in the 
West, to conduct studies of stream flow management for vegetation 
control, and on studies of hybridization and environmental tolerances 
to better predict the potential future spread of tamarisk.
    USGS scientists can help identify site potential for water salvage, 
revegetation, and wildlife value, and develop protocols and measures 
for prioritizing sites for control or revegetation. The USGS also has 
partnerships with state and county weed departments, the National 
Aeronautics and Space Agency (NASA), and the Tamarisk Coalition aimed 
at mapping currently invaded sites and identifying new invasions. The 
USGS also has ongoing studies mapping tamarisk in Western Colorado and 
Southern Utah, relating its distribution to environmental factors at 
USGS stream gauging stations throughout the West, assessing vegetation 
changes over time in tamarisk habitat on the lower Colorado River, and 
promoting restoration of native vegetation through water management.
    The Bureau of Reclamation leads, along with USDA's Agricultural 
Research Service, the Saltcedar Biological Control Consortium, a task 
force comprised of over 40 agencies. The Bureau of Reclamation, in 
collaboration with Los Alamos National Laboratory, also develops new 
technologies for determining the amount of water lost from the Rio 
Grande River due to tamarisk.
                  crosscut budget for fiscal year 2004
    The Administration is also working toward an interagency approach 
to invasive species control. The President's Budget Request for Fiscal 
Year (FY) 2004 contains a performance budget crosscut on tamarisk. 
Agencies would work together to develop common performance measures. 
Under this performance umbrella, new and base funds will be applied in 
the Departments of Interior and Agriculture to control and manage the 
spread of tamarisk in the Southwest. Within the Department, the BLM 
proposes to control 2,750 acres of tamarisk with a $500,000 funding 
increase. The Bureau of Reclamation, utilizing $600,000 in new funding, 
proposes to control 22,000 acres of tamarisk. The FWS has proposed an 
increase of $640,000 for treatment of tamarisk and other species on 
refuge lands, and the NPS, utilizing $200,000 in base funding, proposes 
to treat 1,000 additional acres. A proposed funding increase of 
$100,000 will help the Bureau of Indian Affairs control tamarisk on 
4,000 acres. Finally, USGS proposes an increase of $300,000 for two 
additional research projects in direct support of land management 
efforts, including the development of protocols and measures to 
prioritize sites for control and revegetation efforts.
    In addition, both Interior and Agriculture agencies are working 
together with our state and local partners to develop and implement 
control technologies as part of an integrated approach to pest and weed 
management. New chemical and biological control methods for tamarisk 
are being tested under strictly controlled conditions because the 
endangered southwest willow flycatcher occupies areas now infested with 
tamarisk that were once occupied by stands of native willows and 
cottonwoods. The federal agencies are providing support for a multi-
pronged approach to tamarisk control utilizing prevention, early 
detection and rapid response, and other control and management 
activities to limit the introduction and spread of tamarisk into new 
areas of the Southwest.
         coordinated tamarisk control and revegetation workshop
    As a means of deciding how to spend the FY 2004 funds proposed in 
the President's Budget for tamarisk control, the Department is 
considering a strategy workshop to be held in the West sometime this 
fall. The purpose would be to gain stakeholder input for a roadmap 
containing common protocols (decision criteria) and best practices for 
tamarisk control and management. The roadmap would provide guidance for 
selecting on-the-ground projects and research efforts with the twin 
goals of generating increased water supply and restoring ecosystems 
through long-term tamarisk control, revegetation, and habitat recovery.
               departmental views on s. 1236 and s. 1516
    I hope that this overview has provided you with a picture of what 
the Department is doing to manage the control of tamarisk and other 
harmful exotic species. With the above discussion in mind, let me 
briefly turn to the legislation.
    S. 1236 would require the Secretary of the Interior (Secretary), 
through the Bureau of Reclamation, to complete an assessment of the 
extent of tamarisk invasion in the western United States. In addition 
to identifying the states affected by tamarisk, including a gross-scale 
estimation of acreage within the identified states, the assessment 
would include both past and ongoing research on tamarisk control 
methods, and the estimated costs of destruction, biomass removal, and 
restoration and maintenance.
    The Secretary would also establish a State Tamarisk Assistance 
Program to provide grants to affected states. Grants would be awarded 
to states in amounts to be determined by the Secretary based on 
infestation in a particular state. Those states would then be 
responsible for designating a lead state agency to administer the 
program and to work with listed entities, including the National 
Invasive Species Council, the Invasive Species Advisory Committee, 
representatives from relevant tribes, and others in the state, to 
establish priorities for awarding cost-share grants to projects to 
control or eradicate tamarisk. The bill carries a limitation (10 
percent) on the use of grant monies for administrative expenses, and 
would require the lead state agency to provide the Secretary with a 
report at the completion of funded projects.
    S. 1516, the ``Salt Cedar Control Demonstration Act,'' would also 
establish a two-pronged approach. First, it would require the 
Secretary, through the Bureau of Reclamation, to complete a detailed 
assessment of the extent of infestation by salt cedar and Russian Olive 
in western states. The assessment would include past and present 
assessments and management options to control these species; the 
feasibility of reducing water consumption; methods and challenges in 
land restoration; and the estimated costs of destruction, biomass 
removal, and restoration and maintenance. Finally, the assessment is to 
identify long-term funding strategies that could be implemented by 
federal, state, and private land managers. Second, S. 1516 would also 
require the Secretary to initiate demonstration projects to determine 
the most effective control methods for these species, and it provides 
criteria to be included in the project designs.
    We fully support the concepts advanced by these bills. In general, 
we view a comprehensive assessment positively, and believe such an 
approach helps federal land managers develop a more coordinated, long-
term approach to addressing the problems associated with these species. 
We also recognize the importance of carrying out strictly controlled 
projects that will quickly provide us with practical control methods 
that can be used by land managers on the ground.
    As noted above, however, the Department is already working with our 
partners to develop and implement an integrated approach to management 
of tamarisk. Moreover, we have a concern about the overall cost of the 
proposed legislation. S. 1236 would authorize $20 million for fiscal 
year 2004, with additional necessary sums thereafter, while S. 1516 
would authorize $50 million on the same terms. While the 
Administration's cross cut budget evidences our commitment to control 
invasive species like those addressed here, the program established 
under this legislation would have to compete with other priority 
activities within the context of the President's Budget. Finally, the 
Department notes that the demonstration projects called for in S. 1516 
can be achieved within existing authorities.
                               conclusion
    In closing, I want to assure the Committee that the Department is 
prepared and committed to identifying, assessing, and acting to curb 
the economic and ecological impacts of tamarisk and Russian olive in 
the West. We will continue to work with our partners, and we agree with 
the intentions of both bills to more systematically develop an 
effective control strategy. Our goal is to ensure the protection of our 
water resources and the restoration of important wildlife habitat.
    We share the Committee's concerns and interest in this issue, and 
offer to work with the Committee to ensure that any legislation 
promotes an efficient and effective control strategy. Mr. Chairman, 
this concludes my statement and I am happy to answer any questions that 
you might have.

    Senator Murkowski. Thank you, Mr. Brown.
    Let us go to Mr. Gabaldon.

 STATEMENT OF MICHAEL GABALDON, DIRECTOR OF POLICY MANAGEMENT 
 AND TECHNICAL SERVICES, BUREAU OF RECLAMATION, DEPARTMENT OF 
                          THE INTERIOR

    Mr. Gabaldon. Thank you, Madam Chairman. Before I begin, I 
would like to request that my written statements be submitted 
for the record.
    Senator Murkowski. Certainly.
    Mr. Gabaldon. Thank you.
    My name is Michael Gabaldon. I am the Director of Policy, 
Management, and Technical Services with the Bureau of 
Reclamation. I am pleased to be here today to present the views 
of the Department of the Interior on S. 213 and on H.R. 856.
    Let me begin with S. 213, which would clear title to real 
property in New Mexico associated with the Middle Rio Grande 
Project. While my written testimony contains more detail, I 
would like to use my time to summarize my remarks.
    The Department has some concerns with S. 213 as drafted, 
primarily that the dispute over ownership of the San Gabriel 
and the Tingley Beach parcels currently implicates a lawsuit 
pending before the U.S. District Court in the District of New 
Mexico.
    The Department also has some concerns with the findings of 
section 2 in the bill. Contrary to the implication of section 
2(a)(3) of the bill, the United States did not claim title to 
Tingley Beach and San Gabriel Park for the first time in 2000. 
Rather, until recently the United States and the Middle Rio 
Grande Conservancy District had agreed for decades that title 
to all properties necessary for the Middle Rio Grande project 
had been conveyed to the United States.
    For example, both the United States and the district filed 
several briefs with the U.S. Supreme Court in the fifties 
stating unequivocally that title had been transferred to the 
United States, and in the 1970's the district got a nuisance 
case involving the Middle Rio Grande project ditches and canals 
in the Albuquerque area, they got that dismissed on the basis 
that these properties had been conveyed to the United States.
    The Department is not adverse to quit claiming any property 
interest it has to the city of Albuquerque. But all parties 
must agree on the venue and all applicable Federal laws must be 
met, must be met through the process. The Department believes 
that the prudent course of action would be to allow the legal 
system to render its decision before instituting a legislative 
remedy.
    With respect to the city of Albuquerque's desires to make 
improvements on this property, Reclamation has provided a 
license to the city which allows the use of the land in the 
city's--for the use of the lands as proposed in the city's 
improvement plans. In addition to the license, Reclamation has 
met directly with members of the city planning department to 
facilitate the review of the city's proposed improvements for 
the Tingley Beach and we've also worked with other staff to 
assist them in that process.
    Despite the disagreement between the district and the 
Bureau of Reclamation and the United States on this matter, the 
district has been a good partner on this project and has 
retired its debt to the United States. While we are always open 
to working with all interested parties to find acceptable 
solutions, we believe that it is in the best interests of all 
to wait for the court's decision on the quiet title claims.
    In summary, because the title issue is in active litigation 
and because some inaccurate language appears in section 2, the 
Department cannot support S. 213 at this time.
    I would now like to turn my attention to H.R. 856, which 
authorizes the Secretary to revise a repayment contract with 
the Tom Green County Water Control and Improvement District at 
Reclamation's San Angelo Project in Texas. The San Angelo 
project was authorized by Congress in 1957 to provide flood 
control, municipal and industrial water for the city of San 
Angelo. It also provides recreation, fish and wildlife, and 
supplemental irrigation supplies to the district.
    The project has been beset by chronic drought conditions 
since it was constructed in 1963. These arid conditions have 
resulted in Reclamation granting a total of seven deferments of 
the annual installments due under the district's 40-year 
repayment contract. Due to the continued drought, the district 
has requested a partial deferment for 2003. Since 1997, four 
deferments for the district's annual payment to the United 
States have been granted because of the unavailability of 
irrigation water. The district has not taken any water from the 
reservoir since 1998.
    H.R. 856 provides some immediate financial relief to the 
district by extending its contract with Reclamation by 10 years 
and thereby reducing its annual payments to the United States. 
Extension of the repayment period will not likely be a 
permanent solution to the water scarcity facing this project. 
However, taking this action will give Reclamation some time to 
assess the project's long-term challenges and will aid the 
district by providing repayment relief. Therefore the 
Department supports H.R. 856.
    Madam Chairman, that concludes my remarks and I would be 
happy to respond to any questions.
    [The prepared statements of Mr. Gabaldon regarding S. 213 
and H.R. 856 follow:]
Prepared Statement of Michael Gabaldon, Director, Policy Management and 
Technical Services, Bureau of Reclamation, Department of the Interior, 
                               on S. 213
    My name is Michael Gabaldon, Director, Policy, Management, and 
Technical Services of the Bureau of Reclamation (Reclamation). I am 
pleased to be here today to present the views of the Department 
regarding S. 213, which would clear title to real property in New 
Mexico associated with the Middle Rio Grande Project and for other 
purposes.
    The Department has several concerns with S. 213 as drafted, 
primarily that the dispute over ownership of the San Gabriel and 
Tingley Beach parcel currently implicates a lawsuit pending before the 
United States District Court for the District of New Mexico. In 
addition, the Department has concerns about how the transfer of 
property that would be effected by this legislation may affect other 
property rights in the litigation related to this matter.
    The Department is not averse to transferring ownership to another 
entity, but all parties must agree on the venue and all applicable 
federal laws must be met in the process. The Department believes the 
prudent course of action is to allow the legal system to render its 
decision before instituting a legislative remedy. Therefore, the 
Department cannot support S. 213 at this time.
    With respect to the City of Albuquerque's desires to make 
improvements on this property, Reclamation has provided a license to 
the City which allows the use of those lands as proposed in the City's 
improvement plans. In addition to the license, Reclamation has met 
directly with members of the City Planning Department to facilitate the 
review of the City's proposed improvements for Tingley Beach and worked 
with staff to assist them with State Historical Preservation Office 
review.
    The Middle Rio Grande Conservancy District (District) was created 
by the Conservancy Act of 1923 to improve the economy of the Middle 
Valley by lowering the water table and providing flood protection and 
water for irrigation. In the 1940's, the District requested that 
Reclamation take over the operation of the District and retire its 
outstanding bonds. In September 1951, the District and Reclamation 
entered into a 50-year repayment contract in the amount of $15,708,567. 
A key component of the contract is Article 29, which states:
    ``Title to all works constructed by the United States under this 
contract and to all such works as are conveyed to the United States by 
the provision hereof, shall as provided in Article 26, be and continue 
to be vested in the name of the United States until otherwise provided 
for by Congress, notwithstanding the transfer hereafter of any such 
works to the District for operation and maintenance.''
    Therefore, the Department is also concerned with some of the 
findings in Section 2. Contrary to the implication of Section 2 (a) (3) 
of the bill, the U.S. did not claim title to Tingley Beach and San 
Gabriel Park for the first time in 2000. Rather, until recently, the 
U.S. and MRGCD had agreed for decades that title to all properties 
necessary for the Middle Rio Grande Project had been conveyed to the 
United States. For example, both the United States and MRGCD filed 
several briefs with the U.S. Supreme Court in the 1950's stating 
unequivocally that title had been transferred to the U.S., and in the 
1970's MRGCD got a nuisance case involving all MRP ditches and canals 
in the Albuquerque Area dismissed on the basis that these properties 
had been conveyed to the United States.
    Furthermore, in 1998 testimony before a committee of the New Mexico 
Legislature, the District acknowledged the need and desire to seek 
reconveyance after its debt was repaid.
    Section 5 of the bill states that ``nothing in this act shall be 
construed to affect or otherwise interfere with any position set forth 
by any party in the lawsuit . . .'' It is unclear how the passage of 
this legislation could not affect the lawsuit given that the ownership 
of Middle Rio Grande Project properties is a central question in the 
quiet title claim of the litigation.
    Despite this disagreement, the District has been a good partner on 
this project and has retired its debt to the United States. While we 
are always open to working with all interested parties to find 
acceptable solutions, we believe that it is best to wait on the court's 
decision on the quiet title claims.
    Mr. Chairman, that concludes my remarks and I would be happy to 
respond to any questions the Committee may have.
                                 ______
                                 
Prepared Statement of Michael Gabaldon, Director, Policy Management and 
Technical Services, Bureau of Reclamation, Department of the Interior, 
                              on H.R. 856
    My name is Michael Gabaldon and I am the Director, Policy, 
Management, and Technical Services of the Bureau of Reclamation. I am 
pleased to present the Department's views on H.R. 856 which authorizes 
the Secretary to revise a repayment contract with the Tom Green County 
Water Control and Improvement District No. 1 (District) at 
Reclamation's San Angelo Project, Texas.
    The San Angelo Project (Project) was authorized by the Congress in 
1957 to provide flood control, municipal and industrial water for the 
City of San Angelo, recreation, fish and wildlife, and supplemental 
irrigation supplies to the District. The Project has been beset by 
chronic drought conditions since it was constructed in 1963. These arid 
conditions have resulted in Reclamation granting a total of seven 
deferments of the annual installments due on the District's forty-year 
repayment contract. Due to the continued drought the District has 
requested a partial deferment for the 2003 annual installment. Since 
1997, four deferments for the District's annual payment to the United 
States have been granted because of the unavailability of irrigation 
water. The District has not taken any water from the reservoir since 
1998. H.R. 856 provides some immediate financial relief to the District 
by extending its contract with Reclamation by ten years and thereby 
reducing its annual payments to the United States by approximately 
$70,000 per year. Extension of the repayment period will not likely be 
a permanent solution to the water scarcity facing this project. 
However, taking this action will give Reclamation some time to assess 
the project's long-term challenges and will aid the District by 
providing needed repayment relief.
    Therefore, the Department supports H.R. 856.
    Mr. Chairman, thank you again for the opportunity to present the 
Department's views on H.R. 856.

    Senator Murkowski. Thank you very much. We appreciate your 
testimony.
    Mr. Hirsch, welcome.

 STATEMENT OF ROBERT M. HIRSCH, Ph.D., ASSOCIATE DIRECTOR FOR 
   WATER, U.S. GEOLOGICAL SURVEY, DEPARTMENT OF THE INTERIOR

    Dr. Hirsch. Madam Chairman, I am Dr. Robert Hirsch, 
Associate Director for Water, U.S. Geological Survey. I thank 
you for the opportunity to provide the views of the Department 
of the Interior on H.R. 961, the Upper Mississippi River Basin 
Protection Act.
    The Department agrees with the goals of H.R. 961. We 
especially appreciate the bipartisan efforts of the sponsors of 
the bill for their emphasis on the need for sound science to 
resolve the important issues of nutrients and sediment losses 
in the Upper Mississippi River Basin. However, we do have 
concerns about the financial resources that would be required 
for the USGS to carry out the provisions of this bill.
    The bill directs the Secretary of the Interior to provide a 
scientific basis for the management of the sediment and 
nutrient losses in the Upper Mississippi River Basin. This 
would be accomplished through several activities that would be 
conducted or coordinated by the USGS. These are: establishing a 
sediment and nutrient monitoring network that builds on 
existing monitoring activities; conducting research and 
modeling to predict sediment and nutrient losses on the basis 
of landscape, land use, and land management within individual 
watersheds; providing the States and other organizations with 
technical assistance regarding use of consistent and reliable 
methods for data collection; and finally, dissemination of new 
information to managers, scientists, and the public.
    The role identified in the bill for the USGS is consistent 
with our leadership role in monitoring, assessment, and 
research related to the water and biological resources of the 
Nation. The USGS is the Nation's largest water, earth, and 
biological science and civilian mapping agency. The USGS has 
been active in a number of programs and investigations that 
involve the Upper Mississippi River Basin specifically. The 
USGS is a participant in the Mississippi River-Gulf of Mexico 
Watershed Nutrient Task Force. This task force, which has 
representation from Federal agencies and State and tribal 
governments in the basin, is charged with fulfilling the 
requirements of the Harmful Algal Bloom and Hypoxia Research 
and Control Act of 1998 by preparing a plan for controlling 
hypoxia in the northern Gulf of Mexico, and it shares the 
common goal of improving water quality conditions in the 
Mississippi River Basin.
    The USGS has also had a lead role in the preparation of a 
science report that used available water quality information to 
define a recent basin condition for nutrient sources and loads 
in the Mississippi River Basin, a baseline from which future 
water quality trends and improvements will be measured. This 
report identifies those parts of the Upper Mississippi River 
Basin that have the highest nutrient yields.
    The USGS has offices in each of five Upper Mississippi 
River Basin States. These offices have a long history of 
conducting water quantity and quality monitoring and assessment 
activities within the basin. Several USGS programs currently 
provide information on nutrients and sediments within the 
basin. These include two programs that are based on 
partnerships between the USGS and the States: the Cooperative 
Water Program and the Water Resources Research Institutes.
    For the past 20 years, the USGS Upper Midwest Environmental 
Science Center in LaCrosse, Wisconsin, Congressman Kind's home 
town--he is actually a very close neighbor of that center--that 
center has provided research support in the Upper Mississippi 
River Basin to Department of the Interior bureaus and the U.S. 
Army Corps of Engineers to address complex issues of navigation 
contaminants and other natural resource concerns.
    For 15 years, the center has provided the scientific and 
management leadership for the long-term resource monitoring 
program of the U.S. Army Corps of Engineers environmental 
management program for the Upper Mississippi River Basin main 
stem rivers. This monitoring program of water quality, 
fisheries, vegetation, land use, and other critical indicators 
of river health is the largest main stem river assessment 
program in the Nation.
    The USGS is also active in hydrologic and water quality 
studies in the lower Mississippi River Basin. The continuity of 
research between the upper and lower basins is important. To 
this end, the USGS has begun a partnership with the Long-Term 
Estuary Assessment Group Center at Tulane University.
    We are pleased to see that the provisions of H.R. 961 are 
consistent with the Gulf of Mexico Watershed Nutrient Task 
Force recommendations. We are particularly appreciative of the 
efforts of the bill's sponsors in the House for making some 
adjustments to the bill language to avoid conflicts between the 
program authorized in this legislation and longstanding 
nationwide programs of the USGS.
    In summary, the goals of the bill are commendable and the 
bill contains provisions that would build on existing USGS 
programs and expertise. However, funding for the activities in 
H.R. 961 is not included in the fiscal year 2004 President's 
budget proposal.
    Thank you, Madam Chairman, for the opportunity to present 
this testimony and I will be pleased to answer questions you 
and other members of the subcommittee might have.
    On a personal note, I would like to mention that just a 
month ago I participated in a water quality study of the mighty 
Yukon River in the State of Alaska, and I now have a new 
appreciation for the beauty and the resources of the central 
part of your wonderful State. Thank you.
    [The prepared statement of Dr. Hirsch follows:]
  Prepared Statement of Robert Hirsch, Ph.D., Associate Director for 
       Water, U.S. Geological Survey, Department of the Interior
    Mr. Chairman and Members of the Subcommittee, I am Robert Hirsch, 
Associate Director for Water, U.S. Geological Survey (USGS). I thank 
you for the opportunity to provide the views of the Department of the 
Interior (Department) on H.R. 961, the ``Upper Mississippi River Basin 
Protection Act.''
    The Department agrees with the goals of H.R. 961; we especially 
appreciate the bi-partisan efforts of the sponsors of the bill to 
address this important issue and emphasis within the bill on the need 
for reliance on sound science. We have concerns about the financial 
resources that would be required for the USGS to carry out this bill in 
the context of the availability of resources overall for Administration 
programs.
    The bill directs the Secretary of the Interior, acting through the 
USGS, to provide a scientific basis for the management of sediment and 
nutrient loss in the Upper Mississippi River Basin. This would be 
accomplished through establishing a sediment and nutrient monitoring 
network that builds on existing monitoring activities; conducting 
research and modeling that relates sediment and nutrient losses to 
landscape, land use and land management characteristics; providing 
technical assistance regarding use of consistent and reliable methods 
for data collection; and instituting a program to disseminate new 
information to managers, scientists and the public.
    The role identified for the Department in this bill is consistent 
with USGS's leadership role in monitoring, interpretation, research, 
and assessment of the health and status of the water and biological 
resources of the Nation. As the Nation's largest water, earth, and 
biological science, and civilian mapping agency, USGS conducts the 
largest single non-regulatory ambient water-quality monitoring activity 
in the Nation. The USGS has been active in a number of programs and 
investigations that involve the Upper Mississippi River Basin (UMRB) 
specifically.
    The USGS is a participant in the Mississippi River, Gulf of Mexico 
Watershed Nutrient Task Force. This Task Force, which has 
representation from federal agencies, and state and Tribal governments 
in the basin, is charged with fulfilling requirements of The Harmful 
Algal Bloom and Hypoxia Research and Control Act of 1998, by preparing 
a plan for controlling hypoxia in the Northern Gulf of Mexico, and 
shares a common goal of improving water-quality conditions in the 
Mississippi River Basin.
    The USGS also had a lead role in the preparation of a science 
report that used available water-quality information to define a recent 
baseline condition for nutrient sources and loads in the Mississippi 
River Basin--a baseline from which future water-quality trends and 
improvements will be measured. This report identifies those parts of 
the Upper Mississippi River Basin that have the highest nutrient 
yields.
    The USGS has offices in each of the five Upper Mississippi River 
Basin states. These offices have a long history of conducting water-
quantity and water-quality monitoring and assessment activities within 
the basin. Existing USGS programs include the Hydrologic Networks and 
Analysis Program, the National Water-Quality Assessment Program, the 
National Stream Quality Accounting Network, the National Streamflow 
Information Program, the Toxic Substances Hydrology Program, the Water 
Resources Research Act Program, and the Cooperative Water Program, as 
well as reimbursable programs, such as the Long-Term Resource 
Monitoring Program funded by the U.S. Army Corps of Engineers. These 
programs currently provide information on nutrients and sediment within 
the basin.
    For the past 20 years, the USGS Upper Midwest Environmental 
Sciences Center (UMESC) in La Crosse, Wisconsin has provided research 
support in the Upper Mississippi River Basin to DOI agencies and the 
U.S. Army Corps of Engineers to address complex issues of navigation, 
contaminants, and other natural resource concerns. More recently, this 
Center has developed an active partnership with the Department of 
Agriculture, Natural Resources Conservation Service, on sediment and 
nutrient concerns of the agencies. For 15 years, the UMESC has provided 
the scientific and management leadership for the Long-term Resource 
Monitoring Program of the U.S. Army Corps of Engineer's Environmental 
Management Program for the Upper Mississippi River Basin main stem 
rivers. This monitoring program of water quality, fisheries, 
vegetation, land use, and other critical indicators of river health is 
the largest main stem river assessment program in the Nation. The USGS 
conducts monitoring activities in cooperation with many states and 
local governments in the Upper Mississippi River Basin. The USGS is 
also active in hydrologic and water-quality studies in the Lower 
Mississippi River Basin. The continuity of research is important from 
the standpoint of developing a complete assessment of the entire 
Mississippi River basin. To this end, the USGS has begun a partnership 
with the Long-term Estuary Assessment Group, centered at Tulane 
University.
    H.R. 961 acknowledges the need to use all existing monitoring and 
science programs of the USGS and those of other entities while 
identifying information needs in the Upper Mississippi River Basin. 
Existing monitoring and assessment programs and development of models 
are tools for defining how water-quality conditions are affected by 
human activities and natural climatic variations and how management 
actions may best improve water-quality conditions at a wide range of 
scales from small watersheds to the Mississippi River Basin.
    The bill would also authorize integration of activities conducted 
in cooperation with other federal partners and would emphasize and 
expand the existing USGS coordination and assistance to state 
monitoring programs. For example, the U.S. Fish and Wildlife Service's 
(Service) Partners for Fish and Wildlife Program restores wetland 
habitat in watersheds across the country, including the Upper 
Mississippi River Basin. The Service can apply its expertise to the 
reduction of sediment and nutrient loss in the basin through 
participation in demonstration projects, technical assistance, and 
working groups. We recognize the need to ensure that future monitoring 
activities complement and do not duplicate state monitoring activities.
    The provisions of H.R. 961 are consistent with Gulf of Mexico 
Watershed Nutrient Task Force recommendations with regard to science 
and management activities. The proposed legislation describes a program 
consistent with current USGS activities to support protection of the 
UMRB.
    In summary, the goals of the bill are commendable, and the bill 
contains provisions that are within the scope and expertise of the 
USGS, and that are already being addressed by other on-going programs. 
However, funding for the activities in H.R. 961 is not included in the 
fiscal year 2004 President's Budget proposal and would remain subject 
to available resources.
    Thank you, Mr. Chairman, for the opportunity to present this 
testimony. I will be pleased to answer questions you and other members 
of the Subcommittee might have.

    Senator Murkowski. Good. Now, you led right into that. I 
have to ask, how did we do?
    Dr. Hirsch. The Yukon River is really quite a pristine 
river. Its condition is very natural and our reason for doing 
the study is really to try to provide a baseline to understand 
this river, particularly in light of global warming, which is 
having significant effects in terms of the melting of 
permafrost, and we expect to see changes in the future and we 
wanted to have a good baseline. It was actually our studies of 
the Mississippi that got us thinking about that. We had some 
data from about 100 years ago on the Mississippi that are very, 
very useful in understanding the issues that we have there 
today.
    Senator Murkowski. Great. Well, nice that you could make it 
up there.
    Dr. Hirsch. Yes.
    Senator Murkowski. Now that you have the baseline, we will 
just have to invite you back later.
    Let me ask you one quick question and then I will move on 
to the other gentlemen. You have obviously spoken to a broad 
array of programs that are under way in the Upper Mississippi, 
and from your testimony, it appears that many of the objectives 
in the legislation in front of us already exist in different 
forms.
    Do you feel that the USGS already has sufficient authority 
to develop an integrated program with appropriate 
administrative direction, or is additional authority and 
direction needed at this time?
    Dr. Hirsch. I think that the things provided for in this 
bill do not require additional authority. I think the existing 
programs that we have would provide sufficient authority. I 
think this bill would provide a focus to that, which I think 
could be useful in carrying it out.
    I would add that, while we have a good track record of work 
done in the Upper Mississippi Basin, the level of effort in 
terms of monitoring the water quality in that area has 
decreased considerably since our efforts of about a decade ago, 
simply due to budgetary limitations.
    Senator Murkowski. Thank you.
    Mr. Brown, in your testimony it is apparent that the 
administration is supportive of salt cedar management and in 
general management of invasive species, particularly in the 
West. We have got two bills before us today: S. 1236, Senator 
Campbell's bill, which directs the funding for the salt cedar 
control to a single agency designated to each State via grant; 
then we also have Senator Domenici's bill which establishes the 
demonstration programs.
    Can you comment on which approach would be most effective 
and the issues or concerns with each?
    Mr. Brown. I would be glad to provide a preliminary 
response today and look forward to providing a response in 
greater detail at a later time. On the front end, what I would 
suggest is that the involvement of multiple groups to set 
priorities for the projects is one appealing aspect. That is, 
utilizing not only a State lead agency, but also the technical 
and economic and social skills brought to bear by the National 
Invasive Species Council and its Invasive Species Advisory 
Committee.
    That two-pronged approach of having all Federal agencies 
around the table discussing with States and local landowners 
issues, as well as having a Federal advisory committee which 
brings expertise from the non-federal arena, is a marvelous 
model for setting guidelines and helping to set those 
priorities. So on the one hand I believe there's a tremendous 
amount of support for that team effort, if I may call it that.
    There is advantage too in jumping into demonstration 
projects. I think that the Department has called attention in 
its testimony to the need to combine the scientific work with 
the control and management efforts, so that constant monitoring 
and reassessment can be conducted right away, and that in 
conjunction with discussions with the various entities--the 
landowners, the Federal agencies with land management 
responsibilities--that scientific information needs to be 
shared broadly so that the stakeholders as a group can better 
define whether they are succeeding or not in those 
demonstration programs.
    So I think in our written response what will come back is a 
collation of the two that would say we see merit in both 
approaches and we see a way that we would be glad and would be 
glad to provide help to the committee in trying to fashion a 
melding of the two.
    Senator Murkowski. If I heard Senator Domenici correct in 
his opening statement, it suggested that it would be his desire 
to perhaps combine the two.
    Let me ask you about just invasive species in general. I 
mean, we have been focusing on the tamarisk, the salt cedar, 
and the Russian olive, and these plants seem to represent, or 
at least based on what we have heard, the largest invasive 
species problem in the inter-mountain West. But I would ask you 
if there are any other invasive species of equal concern to the 
States or on our Federal lands that you are currently 
addressing?
    Mr. Brown. Again, I would ask for permission to provide 
written remarks for a more comprehensive response. Clearly the 
array of invasive species that we are trying to address under 
the auspices of the executive order signed under the last 
administration and in ongoing programs of the Department 
address the full array of species. Those can be aquatic 
nuisance species like kalerpa, the killer algae that was 
discovered off San Diego Bay and may now be fully eradicated. 
One more quarter of analysis will allow us to determine whether 
in fact it has been eradicated successfully.
    The leafy spurge, which is the scourge of the northern 
plains, of course has devastated ranching operations in the 
past there, but has succumbed in great part because of 
biological control efforts that were orchestrated in a team 
effort between the Departments of Agriculture and Interior and 
private ranchers who worked together to test the organisms that 
actually eat the leafy spurge enough that native organisms can 
get in and kill the plants back so that it takes a background 
level on the landscape rather than the dominant level. That is 
a very famous one.
    Obviously, snakehead is an example of charismatic 
negafauna, something that is easy to hate. That is an example I 
believe of the difficulty in distinguishing between food-
related pathways and other accidental or unintentional pathways 
that allow organisms to come into the country, versus the 
intentional pathways that were utilized when ornamentals were 
brought in such as tamarisk and salt cedar.
    So I think in our written response I could save you time 
now and we will provide a listing of the array of different 
kinds of organisms that run the gamut from West Nile Virus 
right through some of the big ones that are now well known, 
like snakeheads.
    Senator Murkowski. Thank you. I will look forward to that. 
I do not know that I have heard any fauna being described as 
``charismatic megafauna.''
    Mr. Brown. Nega. I was trying to make a bad pun, I am 
sorry. Nega with an ``n''. Elephants being charismatic 
megafauna, and I was trying, I admit desperately, to capture 
something there for snakeheads. Better known as the 
Frankenfish; maybe we should stick with that.
    Senator Murkowski. Frankenfish, there we go.
    Thank you. We will look forward to that then.
    Mr. Gabaldon, regarding the Tom Green County Water Control 
and Improvement District, you have suggested that a broader 
assessment of water needs and supply options for this area 
might be appropriate and I am wondering if such an assessment 
has been initiated and, if so, if you can comment on the 
objectives and the timing of such an assessment.
    Mr. Gabaldon. Madam Chairman, the assessment has not begun. 
We are working with the district and the district has provided 
us some options to us, some of the things that they see could 
work out here. So we are working with the irrigation district 
on that and we will continue working with them to see what we 
can come up with there in terms of trying to extend that water 
supply out there.
    Senator Murkowski. Thank you.
    Then moving over to S. 213, if I understand you correctly 
the administration's position is that you do not oppose the 
transfer of public lands to private--excuse me--of public lands 
to private landholders in general, but the concern here is 
waiting for the completion of the lawsuit concerning the 
ownership.
    Would it be fair to say that if the court rules in favor of 
the Government, establishing Federal ownership, that you would 
be willing to proceed with the transfer to the city of 
Albuquerque?
    Mr. Gabaldon. Madam Chairman, we would proceed in that 
fashion, with the caveat that the Department of Justice would 
have to ensure that there is not some additional ties there 
that would bind the Government in some way. So as far as the 
Department of the Interior, we would be--we are not opposed to 
conveying this property back over, specifically in this one to 
the city of Albuquerque.
    Senator Murkowski. Thank you.
    Let me make sure--then again, also on the Albuquerque land 
transfer, speaking to lands that are deemed to be surplus lands 
or unnecessary to the needs of a particular project, you 
obviously can move to a quitclaim. Do you consider that the 
parcels that you referred to, Tingley Beach and San Gabriel 
Park, do you consider these to be unnecessary to the needs of 
the bureau?
    Mr. Gabaldon. Madam Chairman, we do not see a problem in 
these two parcels if they were to be conveyed, deeded over to 
the city of Albuquerque. We do not see that interfering with 
our operations of the Middle Rio Grande project.
    Senator Murkowski. Thank you.
    Thank you, gentlemen. I appreciate your testimony and your 
response to the questions this afternoon. We will now go to the 
next panel, which consists of: Mr. Tim Carlson, director of the 
Tamarisk Coalition; Mr. John Marshall, assistant director from 
the Colorado Department of Natural Resources; Ms. Debbie 
Hughes, executive director, New Mexico Association of 
Conservation Districts; and Ms. Holly Stoerker, executive 
director of the Upper Mississippi River Basin Association.
    Ladies and gentlemen, good afternoon and welcome to the 
subcommittee. I think what we will do is--let me see what kind 
of an order we have here. Why don't we start with you, Mr. 
Carlson. We stuck you in the middle and you get to go first.

    STATEMENT OF TIM CARLSON, EXECUTIVE DIRECTOR, TAMARISK 
                           COALITION

    Mr. Carlson. Madam Chairman and members of the committee: 
Thank you for this opportunity to present testimony before your 
committee on the important issue of tamarisk and Russian olive 
control in the West. The mission of the Tamarisk Coalition is 
to provide education on the problem of the non-native invasive 
plant tamarisk, which has been referred to also as salt cedar--
it is the same plant--and to help develop long-term management 
and funding structures to control its infestation. Our goals 
are the restoration of the native habitat to the West's rivers 
and streams and the preservation of its water resources for 
beneficial uses.
    I would first like to take the opportunity to thank both 
Senator Domenici and Senator Campbell for their sponsorship of 
these two bills. The proposed legislation includes significant 
on-the-ground demonstration projects, and I will concentrate my 
testimony on the importance of these large-scale demonstrations 
beyond the obvious benefits of site-specific tamarisk control 
and restoration.
    The demonstrations serve to help answer critical questions 
on what will be the true changes that will result after 
tamarisk control and restoration take place. That is, changes 
to water availability in both the surface and groundwater 
supplies, changes to water quality, changes to wildlife 
habitat, and changes to biodiversity of plants and animals.
    It is acknowledged that considerable research has already 
been done in these areas. However, much of this work was done 
on a small scale and some results are conflicting. The 
significant demonstrations associated with these bills can be 
used to better understand the impacts of control and 
restoration to help improve the economic viability of future 
work.
    The demonstrations under these bills will not solve the 
tamarisk problem, but will be vitally important to developing 
long-term solutions. They can be used to support international 
cooperation on tamarisk control between the United States and 
Mexico by including in the legislation at least one border 
demonstration, and the demonstrations can also serve to foster 
quality work experience for youth through existing programs.
    Both S. 1236 and S. 1516 are well thought out and have many 
similarities. The differences between the current bills can 
enhance the final bill that goes through the markup process. We 
have identified a number of issues in our written testimony. I 
would like to just concentrate on a couple of these.
    First, there has been significant biocontrol research and 
release programs that have shown some significant success in 
the past couple years. If this approach can be shown to be 
successful on the large scale demonstrations that are 
authorized under these bills, the economics of control could be 
reduced by as much as 90 percent over any existing herbicide or 
mechanical control tamarisk. Currently no similar type of 
biocontrol research is being conducted on Russian olive and it 
would be appropriate to include specific language in the final 
bill to energize this effort.
    Secondly, S. 1516 includes the costs for control of Russian 
olive as well. Thus the higher authorized funding, $50 million 
per year, is appropriate and reasonable to address the combined 
problems of both tamarisk and Russian olive.
    Thirdly, S. 1516 identifies the importance of developing 
long-term management and funding strategies that could be 
implemented by State, Federal, and local land managers. The 
development of sustainable funding over a long time frame is 
crucial to solving the tamarisk problem.
    Finally, the question has to be asked, what would the 
public gain from these efforts? From a cost standpoint, 
tamarisk control and restoration is low-hanging fruit. 
Preliminary cost estimates would indicate that long-term gains 
in water availability are 5 to 20 times less costly than other 
alternatives. This change in water availability will not 
immediately be evident in the river system. What will likely 
first be seen is changes to groundwater levels that have been 
drawn down from decades of tamarisk infestation.
    Beyond improving the abundance of water, the other 
important side benefits of tamarisk control and riparian 
restoration are that water quality will be enhanced, wildlife 
habitat will be improved, there will be greater biodiversity 
among both plants and animals, and there will be improved 
conditions for human enjoyment of the river systems. These 
benefits are important to the people of the West, but they are 
also important to the people of the Nation.
    Although most people think of the tamarisk problem as one 
that is principally located in the Southwest, it is important 
to know that it is quickly spreading throughout the plains 
States as well as in the Northern Western States. For example, 
tamarisk now infests the Arkansas River for over 150 miles into 
Kansas. More dramatically, tamarisk occupies over 200 miles of 
Yellowstone River in Montana, the longest free-flowing river in 
the lower 48 States.
    The Tamarisk Coalition encourages Congress to pass and fund 
this legislation to help preserve the limited water resources 
of the West and to help restore riparian habitat. Thank you for 
this opportunity to speak before this committee.
    [The prepared statement of Mr. Carlson follows:]
        Prepared Statement of Tim Carlson, Executive Director, 
                           Tamarisk Coalition
    Dear Madam Chairman and Members of the Committee: Thank you for 
this opportunity to present testimony before your committee on the 
important issue of tamarisk (also known as Salt cedar) and Russian 
olive control in the West.
    The Tamarisk Coalition is a non-profit organization that represents 
a wide variety of interests that includes state and federal land 
managers, Tribal units, local governments, environmental organizations, 
water conservation districts, farmers, and ranchers. The mission of the 
Tamarisk Coalition is to provide education on the problem of the non-
native invasive plant tamarisk and to help develop long-term management 
and funding structures to control its infestation. Our goals are the 
restoration of native habitat to the West's rivers and streams, and the 
preservation of its water resources for beneficial uses.
    The proposed legislation, S. 1236--Tamarisk Control and Riparian 
Restoration Act and S. 1516--Salt Cedar Control Demonstration Act are 
extremely important and needed pieces of legislation. While the 
tamarisk issue has been identified as a significant problem for almost 
50 years, it has taken the drought of the past several years to gain 
widespread acceptance that solving this problem should be an important 
component of the West's water management strategy. S. 1236 and S. 1516 
provide significant on-the-ground demonstration projects that will help 
to answer critical questions on potential changes to water 
availability, water quality, habitat, and biodiversity. S. 1516 also 
identifies the critical issue of developing long-term management and 
funding strategies that could be implemented by Federal, State, local, 
Tribal, and private land managers.
    The Tamarisk Coalition believes that these bills provide 
appropriate direction to help gain protection of the West's limited 
water resources and riparian habitats from the infestation of tamarisk 
and Russian olive. This written testimony is divided into four sections 
that provide a background on the problem, suggested changes to the 
legislation with a comparison of the two bills, important issues to 
consider, and importance of the on-the-ground demonstrations.
                               background
    Tamarisk is the primary non-native phreatophyte (water loving 
plant) of concern in the West and thus has the dubious distinction as 
the ``poster child'' of non native plants impacting the riparian zone 
of rivers and streams. Other plants, notably Russian olive (Elaeagnus 
angustifolia), co habit with tamarisk and also deserve attention. 
Therefore, within the context of this testimony, whenever the term 
``tamarisk'' is used, one must also consider Russian olive as the other 
principal invasive plant that may be important to control within 
riparian areas.
    Impacts--Tamarisk (Tamarix spp.) is a deciduous shrub/small tree 
that was introduced to the western U.S. in the early nineteenth century 
from Central Asia and the Mediterranean for use as an ornamental, in 
windbreaks, and for erosion control. Tamarisk is well suited to the 
hot, arid climates and alkaline soils common in the western U.S., and 
has escaped cultivation to displace native vegetation. It gradually 
became naturalized along minor streams in the southwest and by the mid-
twentieth century, tamarisk stands dominated low-elevation (under 6,500 
feet) river and stream banks from Mexico to Canada. Tamarisk is now 
believed to cover anywhere between 1.0 and 1.5 million acres of land in 
the western U.S. and may be as high as 2 million acres (Zimmerman 
1997). The severe impacts on riparian systems that this infestation 
causes throughout the West include (Carpenter 1998, DeLoach 1997):

  <bullet> Tamarisk populations develop into dense thickets, with as 
        many as 3,000 plants per acre that can rapidly displace all 
        native vegetation (e.g., cottonwoods and willows).
  <bullet> As a phreatophyte, tamarisk invades riparian areas, leading 
        to extensive degradation of habitat and loss of biodiversity in 
        the stream corridor.
  <bullet> Excess salts drawn from the groundwater by tamarisk are 
        excreted through leaf glands and are deposited on the ground 
        with the leaf litter. This increases soil salinity to levels 
        that kill saline intolerant willows and other plants and 
        prevents the germination of many native plants.
  <bullet> Tamarisk seeds and leaves lack nutrients and are of little 
        value to wildlife and livestock.
  <bullet> Leaf litter from tamarisk tends to increase the frequency 
        and intensity of wildfires which tend to kill many native 
        plants but not tamarisk. An example of this process was the 
        2003 fires in Albuquerque along the Rio Grande River.
  <bullet> Dense stands on stream banks may gradually cause narrowing 
        of the channel and an increase in flooding. Channel narrowing 
        along with tamarisk induced stabilization of stream banks, 
        bars, and islands lead to changes in stream morphology, which 
        can impact habitat for endangered fish.
  <bullet> Dense stands affect livestock by reducing forage and prevent 
        access to surface water.
  <bullet> Aesthetic values of the stream corridor are degraded, and 
        access to streams for recreation (e.g., boating, fishing, 
        hunting, bird watching) is lost.

    While each of these points is important to one or more 
constituencies, the single most critical problem is that tamarisk uses 
more water than native vegetation that it displaces. This non-
beneficial user of the West's limited water resources dries up springs, 
wetlands, and riparian areas by lowering water tables (Carpenter 1998, 
DeLoach 1997, Weeks 1987). As tamarisk moves into adjacent upland 
habitats through the aid of its deep root system, it consumes even more 
water as it replaces the native grass/sagebrush/rabbit brush 
communities (DeLoach 2002). Zaveta (2000) demonstrates that a program 
of tamarisk control and revegetation would have clear economic, social, 
and ecological benefits. The National Invasives Species Council has 
identified tamarisk as one of its primary targets, most western states 
have listed it on their noxious weed list, and Colorado Governor Bill 
Owens has issued an Executive Order to control tamarisk on public lands 
within ten years.
    Water Usage by Different Vegetative Types--Limited evidence 
indicates that water usage per leaf area of tamarisk and the native 
cottonwood/willow riparian communities may not be that different. 
However, because tamarisk grows into extreme thickets, the leaf area 
per acre may actually be much greater; thus, water consumption would 
also be greater on an acre basis (Kolb 2001). Probably the most 
insidious aspect of tamarisk and its consumption of water is that its 
much deeper root system (up to 100 feet compared to healthy cottonwoods 
and willows stands at 6 feet (Baum 1978, USDI-BOR 1995)) allows 
tamarisk to grow further back from the river and thus can occupy a 
larger area and use more water across the floodplain than would be 
possible by the native phreatophytes. This is especially significant, 
because the adjacent uplands and floodplain typically occupy a cross-
sectional area several times that of the riparian zone. In these areas, 
less dense areas of mesic plants can be replaced by tamarisk resulting 
in overall water consumption several times that associated with these 
other plants (DeLoach 2002).
    From thirteen different studies conducted between 1972 and 2000 on 
tamarisk evapotranspiration rates, the average water use reported is 
approximately 5.3 feet per year (Hart 2003). More recent work performed 
on the Pecos River in Texas over the last three years indicates water 
use by tamarisk of 7.7 feet per year (Hart 2003). Recent research by 
the U.S. Department of Interior on the middle Rio Grande estimates 
evapotranspiration rates on the order of 4.3 feet per year (Interior 
2003). These studies were performed using different methods of 
measurement, at different locations, and for different densities of 
infestation. Native cottonwood/willow communities have been estimated 
to use approximately one foot less per year than tamarisk (Weeks, 1987) 
while the native shallow-rooted upland plant communities of grasses, 
sage, etc. principally use only the moisture received by precipitation. 
Unpublished research on the Bosque del Apache National Wildlife Refuge 
on the middle Rio Grande River in New Mexico indicates that Russian 
olive has very similar evapotranspiration rates as tamarisk (Bawazir 
2003).
    Estimates of Non-Beneficial Water Use--The term ``non-beneficial 
water use'' is defined as the difference in water consumption 
(evapotranspiration) between tamarisk and the native plants it has 
replaced. Estimates on water consumption by tamarisk vary a great deal 
depending on location, maturity, density of infestation, and depth to 
groundwater. This will also be true for the cottonwood/willow 
community. Using the above information, one can reasonably estimate 
that this non-beneficial use of water is approximately 1 foot per year 
for tamarisk in the riparian areas that could support a cottonwood/
willow community and approximately 4 feet per year for the upland areas 
that could support a native grasses/sage/rabbit brush type of plant 
community. For the West, it is estimated that one-third to two-thirds 
of the land currently infested by tamarisk was formerly occupied by 
cottonwood/willow communities and that the remaining percentage of land 
would have been occupied by grasses/sage/rabbit brush type of plant 
communities. If one takes the estimated infested acreage of 1.0 to 1.5 
million acres in the West, the estimated non-beneficial water 
consumption is approximately 2.0 to 4.5 million acre-feet per year. 
These estimated water losses represent enough water to supply upwards 
of 20 million people (Denver Water Board 2002) or the irrigation of 
over 1,000,000 acres of land. At a modest infestation rate of only 1% 
per year, these losses will increase by two-thirds in the next 50 years 
(see attached Figure). These values obviously represent a great deal of 
water that is being consumed beyond what the valuable native plants 
would have used. It would be even higher if the areas occupied by other 
non-native phreatophytes, such as Russian olive were included.
    Costs--Costs for removal vary depending on the expanse of the 
infestation, existence of other valuable plant species, and terrain. 
For aerial helicopter spraying with herbicide the cost is around $200 
to $250 per acre (Hart 2003, Lee 2002). While aerial herbicide spray is 
extremely effective in killing tamarisk, it also kills most other 
vegetation types and must be used judiciously. For mechanical mulching 
and herbicide application the cost ranges from $300 to $800 per acre 
(McDaniel 2000, Taylor 1998, CWCB 2003). For hand clearing and 
herbicide application the cost can range from $1,500 to $5,000 per acre 
(Tamarisk Coalition 2002). Terrain, access, presence of other native 
vegetation, etc. all dictates which approach to use. No one approach is 
right for all situations. The U.S. Department of Agriculture recommends 
the strategy of Integrated Pest Management that matches the right 
methods for each situation.
    Additionally, a bio-control approach that uses a Chinese leaf 
beetle (Diorhabda elongata) has been undergoing research for the past 
10 years by the U.S. Departments of Interior and Agriculture, and is 
showing great promise for reducing costs (De Loach 2002). Recent work 
from the Lovelock, Nevada bio-control release site showed near 100 
percent defoliation on nearly 400 acres of tamarisk (Carruthers 2003). 
Based on preliminary estimates, this control technique could reduce the 
costs to a small fraction (10 to 20 percent) of any herbicide and/or 
mechanical approach. The current status of this bio-control program is 
that the USDA Animal and Plant Health Inspection Service's (APHIS) 
intention is to publish for review the recommendation to implement the 
release of the Chinese leaf beetle in 2004 north of the 38th parallel--
essentially 70 miles north of the Oklahoma, New Mexico, and Arizona 
state lines (Richard 2003).
    The important role that APHIS plays in helping states implement 
these bio-control efforts in the future cannot be overlooked. As part 
of any demonstration that involves the use of the Chinese leaf beetle, 
it should include the combined involvement of USDA and Interior 
scientists working with APHIS to help guarantee the utmost success.
    Tamarisk control is only part of the cost. Restoration is the other 
component which is necessary to bring back the right native plants and 
restore habitat. If the objective is to only kill tamarisk, other 
invasive noxious weeds will likely take their place if restoration is 
not part of the effort. Restoration may occur naturally where native 
plants are still viable or may require specialized efforts to restore 
the riparian lands. In general, costs may range from $50 to $1,500 per 
acre.
    The Tamarisk Coalition has estimated that the overall cost for 
control and restoration could have an average range of $250 to $350 per 
acre-foot of water resources recovered (CWCB 2003). As a reference 
point, the cost of purchasing senior water rights in the Denver, 
Colorado area is valued at $4,000 to $12,000 per acre-foot (Franscell 
2002). This change in water availability will not immediately be 
evident in the river systems but will likely first be seen as changes 
to groundwater levels that have been drawn down from decades of 
tamarisk infestation.
    Beyond improving the abundance of water, the other important side 
benefits of Tamarisk control and riparian restoration are 1) water 
quality will be enhanced, 2) wildlife habitat will be improved, 3) 
there will be greater bio-diversity among both plants and animals, and 
4) there will be improved conditions for human enjoyment of the river 
systems. The value of this improved viability of the West's river 
systems is difficult to measure in terms of dollars but is considered 
to be highly significant.
        suggested changes and comparison of s. 1236 and s. 1516
    Suggested Changes: The Tamarisk Coalition offers for consideration 
the following three suggested changes to the Senate bills:

          1. Add: ``The Secretary shall also identify at least one 
        international demonstration project between the U.S. and 
        Mexico.'' This addition is important because tamarisk 
        infestations do not recognize political boundaries, and 
        eventual control will require cooperation between both 
        governments and will aid in meeting international agreements 
        for water delivery.
          2. Change the language associated with Cost-Sharing to read: 
        ``The Federal share of the costs of any demonstration activity 
        funded under this program shall be no more than 75 percent of 
        the total cost. Research activities associated with 
        demonstrations shall be 100% Federal share.'' This change is 
        important because critical research issues on water 
        availability, water quality, habitat, and bio-diversity benefit 
        the entire West and are not solely a local issue. Additionally, 
        this type of research will be a collaborative effort between 
        federal scientists and numerous universities throughout the 
        West that are not project specific.
          3. Add: ``For demonstration projects, the Secretary is 
        encouraged to award procurement contracts, grants, or 
        cooperative agreements under this section to entities that 
        include Youth Conservation Corps, Americorps, or related 
        partnerships with State, Native American, local or non-profit 
        youth organizations, or small or disadvantaged businesses where 
        appropriate.'' This change would reinforce the use of youth 
        programs for performing many of the labor-intensive activities 
        associated with control and restoration. The use of youth 
        programs provides added value in the form of training, work 
        experience, and work ethics.

    Comparison of Bills: Both S. 1236 and S. 1516 are very similar with 
few exceptions. These differences can enhance the final bill that goes 
through the mark-up process. The following are those areas that the 
Tamarisk Coalition views as important to consider.

          a. S. 1236 identifies the States as the grant recipients to 
        administer the demonstrations through a lead state agency. We 
        believe this to be an efficient approach for the on-the-ground 
        demonstration projects. We recommend that the research and 
        monitoring components of the demonstrations identified in S. 
        1516 be directed by the Secretary of Interior.
          b. S. 1236 identifies that not more than 10 percent of the 
        grant amount to the states be used for administration expenses. 
        We would suggest similar language in S. 1516 for research 
        efforts, such as ``not more than 20 percent of the total funds 
        authorized under this act shall be used for research and 
        monitoring activities''.
          c. S. 1516 includes the costs for control of Russian olive. 
        Thus, the higher authorized funding ($50,000,000 per year) is 
        appropriate and reasonable to address the combined problems of 
        tamarisk and Russian olive.
          d. S. 1516 identifies the importance of developing long-term 
        management and funding strategies that could be implemented by 
        Federal, State, and private land managers. The development of 
        sustainable funding over a long time frame is critical to 
        solving the tamarisk problem.
          e. Bio-control research and release programs are showing 
        significant success. If this approach can be shown to be 
        successful on the large-scale demonstrations proposed under S. 
        1236 and S. 1516, the economics of control could be reduced by 
        as much as 90% over any herbicide and/or mechanical control 
        technology. Currently, no similar type of bio-control research 
        is being conducted on Russian olive and it would be appropriate 
        to include specific language in the final bill to energize this 
        effort.
          f. Both S. 1236 and S. 1516 include the importance of 
        restoration and maintenance. These components are essential 
        because tamarisk control without restoration and maintenance 
        will generally not achieve the desired objectives.
                            important issues
    Tamarisk Coalition partners have raised four issues that are 
important to consider in the overall control of tamarisk and 
restoration in the West. They are:

          1. Water Rights--The control of tamarisk should improve both 
        groundwater and surface water supplies in the future. This is 
        not the creation of new water but rather the prevention of a 
        non-beneficial use of water and, therefore, no new water rights 
        should be implied. Respect for existing State water law and 
        water rights are important to maintain.
          2. Property Rights--While private property owners are some of 
        the strongest supporters of this legislation, it is important 
        to acknowledge that private property rights must be respected.
          3. Existing Infrastructure--The rivers of the West are highly 
        impacted by man to improve their capability to store and supply 
        water (e.g., dams, irrigation systems) for beneficial use. 
        Existing infrastructure is important for the continuation of 
        these uses and tamarisk control and restoration should respect 
        these conditions.
          4. Endangered Species--Protection of endangered species have 
        been viewed in the past as a potential obstacle to tamarisk 
        control. This is not now the case. The Final Southwestern 
        Willow Flycatcher Recovery Plan (U.S. Fish and Wildlife Service 
        2002) does provide management approaches that will allow staged 
        removal of tamarisk and restoration to occur. The Upper 
        Colorado River Endangered Fish Recovery Program also recognizes 
        the impacts tamarisk has had on river structure and its 
        subsequent impact on fish breeding opportunities. The 
        Endangered Fish Recovery Program is working directly with the 
        Tamarisk Coalition to develop compatible tamarisk control and 
        restoration strategies that will enhance fish recovery.

    The value of well designed demonstration projects authorized under 
S. 1236 and S. 1516 is that these projects will help to demonstrate 
that tamarisk control and restoration can be successful while 
maintaining respect for water rights, property rights, existing 
infrastructure, and endangered species.
             importance of the on-the-ground demonstrations
    The proposed legislation includes significant on-the-ground 
demonstration projects. The Tamarisk Coalition would like to 
concentrate on 4 points that emphasize the importance of these large-
scale demonstrations beyond the obvious benefits of site specific 
tamarisk control and restoration.
    First: Under S. 1516, the demonstrations serve to help answer 
critical questions on what will be the true changes that will result 
after tamarisk control and restoration takes place. That is, changes to 
water availability in both the surface and groundwater supplies, 
changes to water quality, changes to wildlife habitat, and changes to 
the biodiversity of plants and animals. It is acknowledged that 
considerable research has already been done in these areas; however, 
much of this work was done on a small scale and results are 
conflicting. The significant demonstrations associated with these bills 
can be used to better understand the impacts of control and restoration 
and to help improve the economic viability of future work. Because 
these monitoring activities go beyond single demonstrations and will 
involve many federal scientists, we encourage that monitoring be 100% 
federally funded.
    Second: As stated above, Tamarisk Coalition partners have 
identified four important issues. These include respect for existing 
state water laws and water rights, respect for property rights, respect 
for existing infrastructure such as water storage and delivery systems, 
and respect for endangered species. We believe that large-scale 
demonstrations will show that tamarisk control and restoration can be 
successful, and at the same time be supportive of these issues. In 
fact, both water rights and endangered species recovery should be 
enhanced under well-designed demonstrations.
    Third: The demonstrations will not solve the tamarisk problem. 
However, the demonstrations can be used as an educational and 
cooperational tool to help develop the strategies for long-term 
management and funding for tamarisk control and restoration.
    Fourth: The demonstrations can be used to support international 
cooperation on tamarisk control between the U.S. and Mexico by 
including at least one border demonstration within the legislation. The 
demonstrations can also serve to foster quality work experience for 
youth through existing programs.
    Finally, the question has to be asked--What will the public gain 
from these efforts? From a cost standpoint, tamarisk control and 
restoration is low hanging fruit. Preliminary cost estimates would 
indicate that long-term gains in water availability are 5 to 20 times 
less costly than new storage, water recycling, conservation, or 
desalination efforts. Beyond improving the abundance of water, the 
other important side benefits of tamarisk control and riparian 
restoration are: 1) water quality will be enhanced; 2) wildlife habitat 
will be improved; 3) there will be greater bio-diversity among both 
plants and animals; and 4) there will be improved conditions for human 
enjoyment of the river systems. These benefits are important to the 
people of the West and the Nation.
    Although most people think of the tamarisk problem as one that is 
principally located in the Southwest, it is important to know that it 
is quickly spreading throughout the Plains states as well as northern 
western states. For example, tamarisk now infests the Arkansas River 
for over 150 miles into Kansas. More dramatically, tamarisk occupies 
over 200 miles of the Yellowstone River in Montana the longest free-
flowing river in the lower 48 states (Richard 2003).
    The Tamarisk Coalition encourages Congress to pass and fund this 
legislation to help preserve the limited water resources of the West 
and to help restore riparian habitat. Thank you for this opportunity to 
present testimony before your committee.
                               references
Baum, B. R. 1978. The Genus Tamarix. Israel Academy of Sciences and 
        Humanities, Jerusalem. 209 pp.
Bawazir, A.S., New Mexico State University, Personal communication, 
        April 2003.
Carpenter, A. 1998. Element Stewardship Abstract for Tamarix 
        ramosissima Lebedour, Tamarix pentandra Pallas, Tamarix 
        chinensis Loureiro, and Tamarix parviflora De Candolle. The 
        Nature Conservancy, Arlington, Virginia.
Carruhers, J., Personal Communications. September 2003.
CWCB 2003, Colorado Water Conservation Board, ``Impact of Tamarisk 
        Infestation on the Water Resources of Colorado'', May 30, 2003, 
        prepared by the Tamarisk Coalition.
DeLoach, J. 1997. Effects of Biological Control of Saltcedar (Tamarix 
        ramosissima) on Endangered Species: Biological Assessment. U.S. 
        Department of Agriculture, Temple, Texas.
DeLoach, J., R. Carruthers, J. Lovich, T. Dudley, and S. Smith, 2002. 
        ``Ecological Interactions in the Biological Control of 
        Saltcedar (Tamarix spp.) in the United States: Toward a New 
        Understanding''--Revised.
Denver Water Board, 2002. ``Denver Water Comprehensive Annual Financial 
        Report 2001''.
Franscell, R., Denver Post, Drought years plumb the depths of water 
        rights, Conflicts inevitable in self-policing system based on 
        prior claims, September 10, 2002.
Hart, C.R., Texas A&M, Personal communication on the Pecos River 
        Ecosystem Project. March 2003.
Kolb, Thomas E. 2001 ``Water Use of Tamarisk and Native Riparian 
        Trees.'' Proceedings of the Tamarisk Symposium, September 26-
        27, 2001, Grand Junction, Colorado.
Lee, B., Northstar Helicopter. Personal communication, August 2002
McDaniel, K.C., and Taylor, J.P. Saltcedar Recovery After Herbicide-
        burn and Mechanical Clearing Practices, New Mexico State 
        University and U.S. Fish and Wildlife Service. 2000
Richard, R., USDA Animal and Plant Health Inspection Service. Personal 
        communication, September 2003.
Tamarisk Coalition, 2002. ``National Fish and Wildlife Foundation--
        Pulling Together Initiative Final Report on Tamarisk control in 
        the Upper Colorado River'', Project #2001-0028-006.
Taylor, J.P., and McDaniel, K.C. Restoration of Saltcedar (Tamarix 
        sp.)--Infested Floodplains on the Bosque del Apache National 
        Wildlife Refuge. Weed Technology, 1998, Volume 12:345-352
Weeks, E., H. Weaver, G. Campbell and B. Tanner, 1987. Water use by 
        saltcedar and by replacement vegetation in the Pecos River 
        floodplain between Acme and Artesia, New Mexico. U.S. 
        Geological Survey, Reston, Virginia.
USDI-BOR 1995. ``Vegetation Management Study: Lower Colorado River, 
        Phase II.'' U.S. Department of Interior, Bureau of Reclamation, 
        Lower Colorado River, Draft Report, Boulder City, Nevada.
U.S. Department of Interior personal communications, 2003
U.S. Fish & Wildlife Service, ``Southwestern Willow Flycatcher 
        (Emidonax traillii extimus) Final recovery Plan'', August 2002.
Zavaleta, E., 2000. ``Chapter 12--Valuing Ecosystem Services Lost to 
        Tamarix in the United States; Invasive Species in a Changing 
        World'', Mooney, H. A. and R.J. Hobbs (eds.) Island Press, 
        Washington, D.C.
Zimmerman, J. 1997. Ecology and Distribution of Tamarix chinensis Lour 
        and T. parviflora D.C., Tamariccea. Southwest Exotic Plant 
        Mapping Program, U.S. Geological Survey.

    Senator Murkowski. Thank you, Mr. Carlson.
    Mr. Marshall.

        STATEMENT OF JOHN MARSHALL, ASSISTANT DIRECTOR, 
            COLORADO DEPARTMENT OF NATURAL RESOURCES

    Mr. Marshall. Thank you, Madam Chairman. I appreciate that. 
My name is John Marshall. I am here on behalf of the State of 
Colorado and I would like to convey to the committee some of 
the State's perspective on this problem. This obviously has 
come to the fore in the wake of, in Colorado's terms, the worst 
drought in 300 years. We know that there are a lot of things 
about drought we cannot control. However, there are things that 
we can control. Non-native noxious plants such as tamarisk are 
precisely one of those things. As Mr. Carlson and others have 
pointed out, there are numerous benefits to removing it in 
terms of protecting the resource and improving quality and 
quantity of flows.
    We had to take a look in Colorado at how extensive the 
issue is. We estimate it to be over a quarter million acres of 
Colorado, which is significant primarily because Colorado is 
the headwater State for so many of the Western rivers. We know 
that, for instance, if it is a problem for Colorado these 
issues, water flows, are going to be--they are also a major 
concern for our friends downstream.
    What we see in Mr. Campbell's bill I think is something 
that can be extremely helpful for States. We have partnerships 
in place where we have already begun some tamarisk control 
projects. I would point specifically to one in the San Miguel 
Basin where the Nature Conservancy has partnered with some of 
our friends in the Federal Government, the State government, 
counties, local governments, as well as nonprofit groups such 
as the Tamarisk Coalition and have been able to attack on a 
very small and basin-specific region and try and start moving 
toward ridding that basin of tamarisk.
    To expand this across different land ownership patterns in 
terms of the BLM, other Federal lands, and the Arkansas River 
specifically, which is predominantly private lands, we believe 
that we need assurances and some helpful matching grants from 
the Federal Government, and I think that is where Mr. 
Campbell's bill would give us a hand there.
    There are a lot of research items that we know we need to 
improve upon. We understand to a great extent what the problem 
is and some of the ways to control it, but there are gaps in 
our science as I understand it. So we like the approach that 
Mr. Domenici is taking in terms of doing some on-the-ground 
experiments while we are learning and improving our 
understanding of that.
    But we would like to convey to your committee that we do 
have the partnerships in place. We have the ability to bring 
together water conservancy districts as well as local 
governments and State and nonprofit groups, who are all very 
interested, for various reasons, in attacking this problem. If 
we can receive some matching grants and some assurances from 
the Federal Government that we are willing to attack this in a 
broad and comprehensive fashion because of the way tamarisk 
spreads, that obviously is necessary and would be very helpful 
for the State.
    I do not hope to repeat anything that has been said prior 
to me, so I will at this point yield my time back to the chair 
and would be happy to entertain any questions.
    [The prepared statement of Mr. Marshall follows:]
       Prepared Statement of John Marshall, Assistant Director, 
                Colorado Department of Natural Resources
    Ladies and gentlemen of the committee, my name is John Marshall and 
I currently serve as an assistant director of the Colorado Department 
of Natural Resources (DNR). It is my distinct honor to come before you 
on behalf of Governor Bill Owens and DNR Director Greg Walcher and 
provide Colorado's perspective on the two pieces of legislation 
currently before the committee. I wish to provide a glimpse of both the 
extent of the tamarisk problem we face, as well as some of the direct 
and immediate steps we have taken at the state level to cope with this 
problem.
    The tamarisk infestation in Colorado is quickly reaching epidemic 
proportions. Because of Colorado's natural hydrology, we rely solely on 
snowpack that falls within our borders, as no rivers or streams flow 
into our state. We are home to the headwaters of such major Western 
rivers as the South Platte, the Arkansas, the Rio Grande, the Yampa, 
and the mighty Colorado River.
    Tamarisk has now infested all of our major waterways to varying 
degrees. We estimate that more than 250,000 acres of riparian areas are 
now choked with the woody noxious weed. The scientists on today's panel 
have spoken to the biology of this invasive plant species with far more 
eloquence and precision than I could hope to repeat. I would like to 
speak specifically to the problem itself and what we are doing about 
it.
    Rural Colorado has known of the damaging effects of tamarisk for 
quite some time. It increases the salinity of rivers, increases the 
threat of wildfire, and degrades wildlife habitat. But until the 
extreme drought that Colorado faced last year the worst in 300 years 
the majority of the public simply had not focused on the issue. The 
nature of tamarisk allows it to absorb far more water than native 
vegetation does and so as our rivers and streams began to dry up last 
summer, we naturally began looking at some of the conditions we can 
control.
    We know as a result of the extensive research already accomplished 
on tamarisk that we could dramatically improve hundreds of thousands of 
acres of riparian ecosystems by removing tamarisk and replacing it with 
native vegetation such as cottonwood trees and willows. And despite 
allegations to the contrary by some scientists, our state wildlife 
professionals are confident that we can change these habitats for the 
better without harming sensitive species.
    As a result of increased public attention on the drought in 
Colorado, Governor Bill Owens issued an executive order this past 
January directing state agencies to work with the federal government, 
local governments, as well non-profit groups and institutions of higher 
education, to identify partnerships and funding necessary to rid the 
state of the non-native tamarisk weed within a decade. Since that time, 
we have been gathering information that will allow us to provide the 
Governor with a cohesive strategy to actually remove tamarisk in 
Colorado.
    Governor Owens used his Fifth Annual Colorado Cares Day this past 
July to bring volunteers together specifically for the purpose of 
removing tamarisk. Hundreds of volunteers from all across Colorado 
gathered together to help remove tamarisk from state parks and 
waterways. Colorado has donated thousands upon thousands of dollars for 
tamarisk removal on state lands, but recently has also donated 
resources to various non-profit partnerships working toward tamarisk 
control. As a case in point, the Nature Conservancy has partnered with 
local governments, federal agencies, and the State of Colorado to 
attack the San Miguel river drainage in Western Colorado. We believe 
that TNC and our other partners will have the San Miguel free of 
tamarisk within five years. So we know these projects can be effective 
and we know there is state and local support for such efforts. We have 
also been able to raise the public's awareness of the issue through the 
Governor's executive order, through statewide volunteer efforts, and by 
working with our partners in the non-profit sector, such as TNC and the 
Tamarisk Coalition. What we need is concentrated support from the 
federal government.
    The primary need that Colorado has is funding for on-the-ground 
projects. We have identified water users, state agencies, counties and 
local governments, as well as conservation organizations, all of whom 
have the capacity to provide matching funds, but are very hesitant to 
get involved financially without some assurance that the resources they 
contribute will have a measurable impact.
    Here is where the Senate, specifically via Sen. Campbell's and Sen. 
Domenici's tamarisk bills, can be of great assistance. If the federal 
government could provide matching grants to states, administered by the 
governors and based on a formula of tamarisk-infested acres in the 
respective Western states, we believe Colorado can generate very 
effective projects with all of the right stakeholders and really begin 
to make a difference.
    In a time of tight budgets and difficult national security 
decisions, we understand that a large federal appropriation is not 
always feasible. This is not to suggest that funding for research and 
other ancillary issues is not appropriate. But specific to funding 
removal projects, we would recommend that instead of continuing to 
spread weed management resources across multiple federal departments 
and agencies, it would be far more effective to provide grants to 
governors who already have strong partnerships built and can leverage 
those dollars beyond what the federal government could do alone. We 
vigorously support the passage of tamarisk legislation out of the 
United States Senate that will provide governors the opportunity to 
remove this invasive species through already-established local 
partnerships.

    Senator Murkowski. Thank you. We appreciate your testimony.
    Sticking with the tamarisk issue, Ms. Hughes.

        STATEMENT OF DEBBIE HUGHES, EXECUTIVE DIRECTOR, 
        NEW MEXICO ASSOCIATION OF CONSERVATION DISTRICTS

    Ms. Hughes. Thank you, Madam Chairman.
    My name is Debbie Hughes and I am the executive director 
for the New Mexico Association of Conservation Districts. So I 
appreciate being able to be here and represent the 47 soil and 
water conservation districts in New Mexico. They are partners 
with many State and Federal agencies and a local delivery 
system for a lot of programs like the ones in the Tamarisk 
Control and Riparian Act and the Salt Cedar Control 
Demonstration Act will fund.
    S. 1516 requires an assessment of the extent of the salt 
cedar infestation in the Western United States. This is very 
important. We are currently trying to gather some of that 
information. We feel that the soil and water conservation 
districts can be and are an essential partner because we can 
work on private lands, State land, Federal land, and tribal 
land.
    We are putting this into practice right now. We are 
currently working with five pueblos in New Mexico, the Bureau 
of Land Management, the Bureau of Reclamation, the U.S. Fish 
and Wildlife Service, as well as the State lands and many, many 
private landowners.
    We support the requirement in the legislation to implement 
various types of control methods. We realize we have got to 
have integrated types of control. Our experience to date is 
showing there is a wide variance in the cost of the types of 
control. Currently we are spending around $200 per acre for 
aerially applying a herbicide to kill the salt cedar, in 
comparison to an average of $3,000 per acre for different types 
of mechanical control. So it is going to take integrated 
approaches.
    We know there is going to be challenges to being able to 
restore and maintain these infested lands and we do appreciate 
there is some focus on that within this legislation.
    We are extremely pleased with this bill requiring 
monitoring and documentation of water savings. That is a big 
question, how much are we actually going to gain. We think 
there is a lot of new technology that can help us look at that.
    We also really appreciate the support--and support the 
cost-share portion of this. We think that it is going to enable 
buy-in and support from the local and the State level. We with 
the soil and water conservation districts look forward to 
working with our State and local government to help come up 
with that local match.
    Just prior to coming up here, the Friends of Rio Rancho and 
the Pueblo of Isleta called and asked that I be sure and 
express their support for this legislation. They are desiring 
additional funding and wanting to continue working with us.
    S. 1236 provides grants to States, which is also a concept 
that we support. It allows for more local decisionmaking and 
control of the projects by the local, State, and Federal 
agencies within each State, depending on who desires to be 
involved. Both of these bills have language that allow for the 
local soil and water conservation districts to be involved with 
the implementation of the research and control activities. Our 
partnership, core partnership with the USDA and RCS and other 
different agencies enable us to be a catalyst in working with 
private landowners and others on a watershed basis. We applaud 
your wisdom for including us and we will work hard to help 
Congress do a very good job if we are able to get these 
programs.
    I will just add a few words from my written testimony. I 
would like to also add that in New Mexico we have just recently 
received in the last 2 years $6.2 million specifically focused 
on salt cedar control and restoration efforts. So we are 
actively involved in this. Some of that funding is going on 
Federal land. We have got some going to the Bureau of 
Reclamation lands, some on U.S. Fish and Wildlife. We are doing 
some partnership programs with the BLM.
    So we are showing that we can work with diverse groups, 
pueblos. We have got a lot of things going on in the Rio 
Grande, actually with like the nature center, the city of Rio 
Rancho, the city of Bernalillo Hispanic cultural center. We are 
working with Acequias in New Mexico and land grants.
    So we applaud this effort. We are very supportive and will 
do whatever we need to do to help Congress make this happen. 
Thank you very much.
    [The prepared statement of Ms. Hughes follows:]
       Prepared Statement of Debbie Hughes, Executive Director, 
            New Mexico Association of Conservation Districts
    The New Mexico Association of Conservation Districts would like to 
go on record as supporting S. 1516, the ``Salt Cedar Control 
Demonstration Act'' and S. 1236, the ``Tamarisk Control and Riparian 
Restoration Act''.
    We are currently conducting projects in New Mexico funded by the 
state legislature that would greatly benefit from the passage of one or 
both of these bills. New Mexico legislature appropriated 5 million 
dollars in 2002 to be utilized on the Pecos and Rio Grande Rivers for 
the eradication of non-native phreatophytes. Another 1.2 million was 
appropriated in 2003 for the same purpose. The legislature also 
appropriated an additional $100,000 for a pilot project, utilizing 
goats on the Rio Grande.
    This funding is appropriated to the soil and water conservation 
districts in New Mexico.
    The conservation districts are also pursuing additional funds and 
programs for the restoration of the riparian areas. One of the federal 
programs being utilized is the Corps 1135 program entitled ``Bosque 
Restoration''.
    The Bureau of Reclamation (BOR) is benefiting from some of these 
state dollars as they have completed an environmental analysis on the 
Rio Grande and we are treating 7,641 acres in southern New Mexico.
    On the Rio Grande, another successful cooperative effort was with 
the US Fish & Wildlife Service to work on the Sevilleta National 
Wildlife refuge, which included work on another 1,200 acres utilizing 
state and federal dollars.
    The Bureau of Land Management (BLM) is also cooperating with the 
local soil and water conservation districts through a MOU and 1,900 
acres of BLM land benefited from our state dollars while another 1,150 
acres of BLM was treated with federal dollars through a local 
cooperative effort.
    Our project in New Mexico is working with a tremendous number of 
partners. On the Pecos River in 2002, we treated 9,100 acres of salt 
cedar spanning 185 miles of river and worked with 409 private 
landowners.
    On the Rio Grande, we have treated 700 acres of land for the Santo 
Domingo Pueblo, over 1,000 acres of land for the Isleta and Laguna 
Pueblos with aerial application. We have also completed mechanical work 
on the Nambe and Pojoaque Pueblos. Soil and Water Districts are 
conducting mechanical work on the Rio Grande on lands that belong to 
the Middle Rio Grande Conservancy District, City of Bernalillo, Rio 
Rancho, Nature Center, Hispanic Culture Center, Acequias and private 
landowners. In the Southern Rio Grande we have completed work in the 
city of T or C and Leasburg State Park.
    We have several on-going partnerships working with us on monitoring 
efforts such as the UNM Bosque Ecosystem Monitoring Project, the FS 
Rocky Mountain Research center, and the Carlsbad Environmental 
Monitoring Center.
    USF&W has just recently approved the release of leaf beetle at 20 
new sites in 7 states of which one of those sites is located in New 
Mexico.
    Soil and water conservation districts in New Mexico are also taking 
advantage of other sources of funding such as the Collaborative Forest 
Restoration Program to fund removal of salt cedar, which are high fuel 
hazards near communities.
    We supported legislation that allows for a corporate income tax 
credit for companies utilizing biomass including salt cedar passed and 
it became law in NM.
    Conservation districts that have not been funded by the state 
legislature direct appropriation have applied for and received funding 
to do additional work through the ``Water Trust Board'' in several 
areas of the state.
    We welcome the requirements for cooperation in S. 1516 and S. 1236 
and also for the required matching cost share.

    Senator Murkowski. Thank you. It is good to hear the 
collaborative process is working.
    Next let us go to Ms. Holly Stoerker. Welcome.

    STATEMENT OF HOLLY STOERKER, EXECUTIVE DIRECTOR, UPPER 
              MISSISSIPPI RIVER BASIN ASSOCIATION

    Ms. Stoerker. Thank you, Madam Chairman. My name is Holly 
Stoerker and I am the executive director of an organization 
called the Upper Mississippi River Basin Association, which was 
formed 22 years ago by the Governors of the five States that 
border the upper river, and those would be Wisconsin and 
Minnesota and Illinois and Iowa and Missouri.
    First, I would like to thank Congressman Kind for his 
leadership in addressing what we have come to recognize in our 
basin as being one of the most problematic and persistent 
issues, which is sedimentation and of course nutrients, which 
we have seen in the headlines perhaps more recently. But 
sediment in particular is a problem for us because not only 
does it fill in our valuable backwater habitat areas on the 
Mississippi River, but it also fills in the navigation channel 
and so the Corps of Engineers has to dredge the channel in 
order to maintain a safe navigation system for commercial 
navigation.
    I think that is why, as Mr. Kind noted earlier, we have a 
noncontroversial bill. We are dealing with an issue that is a 
problem for everyone.
    I am here today on behalf of the five States that border 
the Upper Mississippi River basically with a very simple 
message, which is we need what H.R. 961 is seeking to 
establish, which is an integrated monitoring and modeling 
network for not only the river but the whole basin, so that we 
can better understand sediment transport and nutrient 
transport, so that we can not only take care of our own rivers 
and streams, but also the stewardship of the Gulf of Mexico, 
our downstream water resource.
    Let me assure you that our organization is not the only 
one, of course, that is interested in not only a scientific 
approach to these issues in our basin, but this bill in 
particular. As I believe Mr. Kind alluded to earlier, nearly 2 
years ago we had 6 governors from our basin--tripartisan, by 
the way; Mr. Ventura is no longer in Minnesota, but at the time 
made the letter a tripartisan letter--not advocating this 
particular piece of legislation, mind you, but certainly the 
exact same thing that this piece of legislation is seeking to 
do.
    Similarly, as Mr. Kind and I believe Dr. Hirsch also 
mentioned, this bill is very consistent with recommendations 
that came out in January 2001 from the Mississippi River-Gulf 
of Mexico Watershed Nutrients Task Force, which more recently 
actually formed a particular work group to design a science 
strategy for the basin to look at nutrient modeling and 
monitoring and in fact within the next couple of weeks are 
expected to release the report, which, although still draft in 
form, is actually recommending very much what this bill, H.R. 
961, is seeking to establish.
    I am not going to review all the points in my testimony, 
but I do want to emphasize one before I close, which is that in 
establishing a new USGS monitoring program we must not do it at 
the expense of our existing programs. There is a very practical 
reason that I say that. We simply cannot assess nutrient and 
sediment transport without good flow data. It seems that nearly 
every year we struggle to maintain funding for the U.S. 
Geological Survey's national stream flow information program.
    As part of that program, USGS operates about 650 stream 
gauges in our 5 States and the upper basin. But we have lost 80 
of those gauges because of funding cutbacks in the recent past. 
So we cannot launch new initiatives, regardless of how well 
they are needed, without maintaining what we have already got, 
which is the flow data.
    I would be happy to answer any questions and we look 
forward to implementing this program in partnership with the 
U.S. Geological Survey.
    [The prepared statement of Ms. Stoerker follows:]
       Prpared Statement of Holly Stoerker, Executive Director, 
               Upper Mississippi River Basin Association
    Good morning. Thank you, Chairman Murkowski and Members of the 
Subcommittee, for this opportunity to appear before you. My name is 
Holly Stoerker and I am Executive Director of the Upper Mississippi 
River Basin Association (UMRBA). The Governors of Illinois, Iowa, 
Minnesota, Missouri and Wisconsin formed the UMRBA in 1981 to 
coordinate the state agencies' river-related programs and policies and 
to work with federal agencies on regional issues. On behalf of our 
member states, I am pleased to offer the following comments regarding 
the Upper Mississippi River Basin Protection Act (H.R. 961).
                                overview
    The Upper Mississippi River Basin Association (UMRBA) is a strong 
supporter of efforts to reduce sediment and nutrients in the basin. As 
such, the UMRBA enthusiastically supports the Upper Mississippi River 
Basin Protection Act (H.R. 961).
    The UMRBA applauds the leadership of Representative Ron Kind and 
his House colleagues on the Upper Mississippi River Congressional Task 
Force in addressing water resource needs in the basin and their 
commitment to providing sound scientific data upon which to make water 
resource management decisions. The UMRBA has worked closely with the 
sponsors of H.R. 961 on previous versions of the legislation including 
H.R. 4013 in the 106th Congress and H.R. 1800 and H.R. 3480 in the 
107th Congress. The fact that this legislation has been introduced in 
three Congressional sessions and undergone numerous changes in response 
to suggestions from both state and federal water agencies, as well as 
stakeholders in the basin, is testimony to the tenacity and patience of 
its sponsors. The UMRBA is hopeful that this Senate hearing marks the 
final leg of the journey to enactment of H.R. 961.
               the importance of monitoring and modeling
    Both sediment and nutrients have a profound affect on the quality 
of lakes, rivers, and streams throughout the Upper Mississippi River 
Basin. Sediment fills in valuable wetlands and streams throughout the 
basin, as well as the unique backwater habitats and navigation channel 
of the Mississippi River. Excess nutrients degrade water quality, 
impairing rivers and streams and threatening ground water supplies. In 
addition, excess nutrients from the Mississippi River Basin have been 
linked to oxygen depletion in the Gulf of Mexico, resulting in what is 
known as Gulf hypoxia. Meeting these challenges will require 
significantly enhancing our understanding of sediment and nutrient 
sources, mobilization, and transport. The monitoring and modeling 
program authorized in H.R. 961 is not a scientific luxury; it is a 
management imperative. The data and information that results from these 
efforts will help guide federal, state, and local programs designed to 
solve the very real problems of water quality and habitat degradation. 
Targeting our efforts to restore wetlands, reduce non-point pollution, 
and help agricultural producers apply best management practices, 
depends on good scientific data.
    The need for enhanced sediment and nutrient monitoring in the Upper 
Mississippi River Basin is widely recognized. In the January 2001 
``Action Plan for Reducing, Mitigating, and Controlling Hypoxia in the 
Northern Gulf of Mexico,'' state and federal agencies participating in 
the Mississippi River/Gulf of Mexico Watershed Nutrient Task Force 
called for ``increasing the scale and frequency of monitoring of both 
the extent of the hypoxic zone and the sources of nutrients and 
conditions of waters throughout the basin.'' In an October 23, 2001 
letter to Bush Administration officials, six Governors of Mississippi 
River Basin states urged that federal programs to reduce nutrient 
inputs be enhanced. In this regard, the Governors stated that a 
``monitoring effort conducted jointly by the U.S. Geological Survey and 
the states is required within the basin to determine the water quality 
effects of the actions taken and to measure the success of efforts on a 
sub-basin and project level.'' H.R. 961 reflects just the type of 
increased monitoring effort that has been proposed by both the Task 
Force and the Governors.
                     specific comments on h.r. 961
    Sediment and Nutrient Monitoring Differences--The monitoring 
network and modeling efforts described in H.R. 961 are designed to 
address both sediment and nutrients. However, the sources, transport, 
delivery, and impacts of sediment and nutrients are not identical and 
will require different monitoring and modeling approaches. Moreover, 
there are natural baseline levels of sediment and nutrients that would 
occur without human activity. For many water bodies in the basin, 
acceptable levels of sediment and nutrient impairment have not been 
identified. While it may not be necessary for the legislation to 
explicitly acknowledge or accommodate these considerations, they will 
be critical in the design of the monitoring network and in development 
of the models. In part, this is why Section 104 of the bill is a key 
provision. Section 104 requires that USGS collaborate with other 
federal agencies, states, tribes, local units of government, and 
private interests in establishing the monitoring network. Such 
collaboration should help ensure that the design of the monitoring 
network yields data that is relevant to both sediment and nutrient 
management issues.
    Relationship to Existing Efforts--Sections 103 and 104 require that 
USGS coordinate with other agencies and programs and build upon 
existing monitoring efforts. Such provisions are critical to the 
ultimate success of the new monitoring and modeling initiatives 
authorized in H.R. 961. For example, it is important that a basin-wide 
monitoring network be linked to on-going work in the basin's tributary 
watersheds, such as the sediment transport modeling in the Illinois 
river watershed, cooperatively sponsored by the State of Illinois and 
the Corps of Engineers. In addition, the Monitoring, Modeling and 
Research Workgroup of the Mississippi River/Gulf of Mexico Watershed 
Nutrients Task Force will soon release its recommended ``Science 
Strategy to Support Management Decisions Related to Hypoxia in the 
Northern Gulf of Mexico and Excess Nutrients in the Mississippi River 
Basin.'' It is our expectation that the monitoring network and modeling 
activities authorized in H.R. 961 be designed and implemented 
consistent with the framework being developed by the interagency Task 
Force.
    Additional New Funding--Section 301 of H.R. 961 authorizes annual 
appropriations of $6.25 million for this new monitoring and modeling 
effort. It will be imperative that this funding represent additional 
new resources, rather than a redirection of existing resources. H.R. 
961 emphasizes integration of existing monitoring efforts and use of 
existing data, a strategy that will certainly help to leverage scarce 
resources. However, integration of existing efforts is not a substitute 
for a real increase in the level of effort. And most importantly, this 
increased effort must not come at the expense of other important USGS 
programs such as the National Water Quality Assessment Program (NAWQA) 
or the National Streamflow Information Program (NSIP). In particular, 
stream-gaging supported by NSIP provides flow data that will be 
critical to successfully monitoring and modeling sediment and nutrient 
loads. We cannot afford to lose any of that stream-flow data, and in 
fact will likely need to increase discharge measurements.
    Cost-Sharing--The states are pleased that the cost-sharing 
requirements in Section 302 of H.R. 961 reflect a more practical 
approach than was embodied in previous versions of the bill. In 
particular, H.R. 961 relies upon existing USGS program accounts and 
cost-sharing provisions to fund this new initiative. Given the 
geographic scope of the basin and the complex array of potential 
nonfederal partners, aggregating contributions to ensure compliance 
with cost sharing requirements in prior versions of the bill would have 
been virtually impossible.
    National Research Council Assessment--Section 106 of H.R. 961 
directs the National Research Council of the National Academy of 
Sciences to conduct a ``comprehensive water resources assessment of the 
Upper Mississippi River Basin.'' In the context of this legislation, it 
is our assumption that such an assessment would be focused on the 
specific water quality issues associated with sediment and nutrients. 
As such, it would potentially provide important input to the scoping 
and implementation of the monitoring and modeling authorized in H.R. 
961.
    Thank you for the opportunity to share the basin states' views with 
you and underscore their strong support for H.R. 961.

    Senator Murkowski. Thank you. I appreciate your testimony, 
and I will follow up with my questions to you first.
    You just indicated that you do not want to move forward 
with this monitoring at the expense of what is already in place 
there. My question to you would be, it does appear that there 
is a fair amount of monitoring already in the area, both the 
monitoring and the analysis. So you have ongoing programs, you 
have an existing effort ongoing. Why do we need an additional 
effort and an expansion, essentially, of funding for USGS and 
their partners?
    So just define for me very clearly why we do one more?
    Ms. Stoerker. Well, there are a couple of reasons, one 
certainly being that, as I just alluded to, much of the 
monitoring that is done is not always targeted at the 
particular pollutants we are looking at, in this case sediment 
and nutrients. But I think more importantly, what we are 
talking about is not only the data-gathering right at stream 
and river level, but integrating that in a way that we can come 
to a better understanding of how it all moves throughout our 
basin and affects the gulf.
    That is not an issue which, even though we may be doing 
monitoring of our local streams and rivers, we are necessarily 
directing that monitoring and that research towards. There are 
different science questions for us. So with that we need 
leadership at the national level through USGS to help integrate 
the work that is already being done, as well as add value by 
some additional monitoring.
    Senator Murkowski. So in your view it is not duplicative; 
it will just enhance and integrate what is existing?
    Ms. Stoerker. That is right. I think that there is a 
section of the bill--I cannot recall offhand; perhaps section 
104--that specifically talks about integrating the existing 
data. In other words, we are not just collecting new data, but 
we are looking at ways to use what we already know and in that 
way add value.
    Senator Murkowski. Great, thank you.
    The questions that I will ask next to the three of you who 
have given your testimony on the salt cedar-tamarisk issue, you 
can all just jump in where appropriate. I have to admit that I 
have learned a great deal about this plant. We do not have it 
in Alaska and, based on what I have heard today, I want to make 
sure that we do not get it in Alaska.
    But from what I understand, where you are able to eradicate 
it--the whole point here is that we are going to see savings in 
water, that more water will actually be made available. But 
apparently it comes initially from the shallow groundwater and 
only a portion of the water that is saved actually gets out 
into the adjacent rivers, or that is what they have said the 
experience is in the Pecos River.
    I would ask any of you to comment on how well we actually 
understand how the water savings work and what monitoring needs 
to be done to understand how we actually get the surface water 
recovery. Any of you?
    Mr. Carlson. I will jump in.
    Senator Murkowski. Jump in.
    Mr. Carlson. There has been an awful lot of work done in 
this area. It has been done principally in the States of New 
Mexico and Texas most recently, but other places throughout the 
West it has also been looked at. That is the water availability 
after tamarisk control has taken place.
    That information is not conclusive by any means. In some 
areas there seems to be a gain that occurs, in other areas 
there does not; there seems to be groundwater changes that do 
occur. One of the things that has happened in the past is there 
has not been a well-focused effort that combines the large-
scale demonstrations with this applied research that is tied to 
it, like Senator Domenici's bill would include.
    Like Debbie Hughes pointed out, it is very important that 
this monitoring activity be part of any major demonstration 
activity so that we in the future really know better the water 
changes, the changes in water availability that will take 
place, as well as the changes in water quality, because if 
there is more water that occurs in the river system that also 
means the water quality should improve. There is some work that 
has shown that, especially in the Texas area.
    Debbie, you have got some recent stuff I think.
    Ms. Hughes. Madam Chairman, what we believe is it is going 
to be variable depending on the location, the depth to water, 
the type of soils. There is just going to be a lot of 
variables. But what we are seeing is, if this work is done 
directly on a stream system, the tamarisk had more access to 
water, there is going to be water available in the system for 
other uses, whether it is for plants that create wildlife 
habitat or actually stream flow or helping to recharge our 
aquifers.
    But there are so many variables. We do have a couple of 
small successes in New Mexico just recently. Where you do work 
where there historically were springs, I think we are seeing a 
lot more immediate response. Actually we have got a flume up 
near Santa Fe that has shown just 30 acres were treated and we 
have got an increase in flow there, and that is without 
additional rainfall. We are seeing some groundwater monitoring 
wells that are coming up.
    I do not think we are able to show how much is going to be 
in the streams, but we know that these non-natives by all of 
the transpiration data studies that have been done are using 
about twice what native trees like a cottonwood would use. So 
we are real excited about this, but we think there is a lot of 
information that we do need to look at, and it is going to 
really vary depending on the location and a lot of other 
variables.
    Senator Murkowski. That was going to be my next question: 
some specific examples of where you have seen the benefit, the 
value. Mr. Marshall, you mentioned something in San Miguel 
basin, but did not really go into much more detail about it. 
But we are able to quantify the benefits then of eradication in 
specific areas?
    Mr. Marshall. Madam Chairman, I will expand on that a 
little bit. The San Miguel basin is one of the few free-flowing 
rivers in western Colorado and we see there probably as close 
to a natural, native ecosystem as we think maybe exists in our 
part of the world. So part of what the effort in the San Miguel 
basin is intended to do is to maintain that ecosystem, because 
there are a lot of rare plants where you just do not see those, 
the complexity, as you do in other parts of the world.
    We also have there a tamarisk infestation that is less 
severe than in some parts of the State, and so we are able to 
attack that in a much more individualized way. There are places 
in western Colorado that it is so thick and such a monoculture 
that it makes it much more difficult to get to. So what we 
would see in the San Miguel would probably be less drastic in 
terms of changes in water yield because it simply has not 
gotten hold. But that is also what allows us, is allowing us, 
to attack that region a little bit more aggressively, because 
we know we can make an impact in a fairly short order.
    But as to the science of it, I will not go into that. I am 
certainly not a biologist. But I can tell you that in terms of 
the policy in treating we are excited about that basin because 
it has not taken the foothold it has in some other areas. But 
it is certainly going to take a much bigger effort, and I would 
anticipate that we would see a much larger difference in the 
flows and the hydrology in some of these areas where it has 
taken a much bigger grip, such as the main stem of the Colorado 
or the Arkansas River.
    Senator Murkowski. One of the points that was made was that 
just the wide range of estimates, the cost to eradicate. I 
think, Ms. Hughes, you mentioned that it can range from $200 to 
I think you said $3,000 an acre to deal with this. Recognizing 
just the magnitude, the area that we are talking about--I mean, 
this is a huge, huge, huge project--what kind of funding 
mechanisms are currently in place or being developed to support 
the control on State or private lands?
    I know you have mentioned matching funds, but what kind of 
initiatives are out there currently?
    Mr. Marshall. I will just speak to a couple of things in 
Colorado. Governor Owens this last January, partially as a 
reaction to the drought, issued an executive order that within 
a decade he would like to see tamarisk removed from Colorado. 
The complexity of that order you can appreciate, I am sure, 
because part of what we are tasked with doing is coming up with 
a funding strategy that will allow us to accomplish that.
    There are things that the State does as a matter of, well, 
say, fulfilling compact requirements. We must do an aerial 
survey of irrigated acreage as part of our compact agreements 
with other States on various rivers. Something that we are 
moving towards is just tying in tamarisk inventory as a part of 
that. We are up there anyway. We have experts that know what to 
look for. That is something the State can very easily take 
control of and save the Federal Government money in terms of a 
bill like this, where we are able to take some efforts that are 
already under way and help defray some of the costs to avoid 
duplication.
    I know that that has been probably--I know that has been 
addressed in some of the bills in terms of inventorying, but I 
would just suggest that there are places where we are already 
duplicating and we would have partnerships with nonprofits, 
with water conservancies and things that are already out there, 
that the States already have some of those partnerships and 
funding mechanisms in place.
    What we do not have are the larger dollars to go after some 
of the large land, the large acreages that we are talking about 
in several parts of Colorado along the main stem, the Arkansas, 
and things like that. Those are a few of the things that we 
have been able to do in terms of the State specifically.
    Senator Murkowski. Ms. Hughes.
    Ms. Hughes. Madam Chairman, we also are pursuing State and 
local funding as well as incentives. The State legislature in 
New Mexico did create what is known as a water trust fund 
through the Water Project Finance Act. We are also utilizing 
other programs through USDA, through the farm bill EQIP 
program. We have also been able to match some of our State 
funding with other programs, like through the Forest Service 
for collaborative forest restoration for fire prevention.
    But this past legislative session the New Mexico 
legislature also passed legislation that gave a corporate 
income tax credit for companies that utilize the biomass, and 
they were very explicit that it also included salt cedar. There 
was language in there. So we are looking for other innovative 
approaches that will hopefully help build businesses in the 
rural areas to utilize this woody species besides just coming 
here with our hands out to the Federal Government. We realize 
that it is going to take everybody working together.
    Thank you.
    Senator Murkowski. Just one last question, again for all of 
you. We have not really talked about how you eradicate it. I 
have been told some of the methods. But what about things like, 
we have a lot of spruce bark beetle up in Alaska that decimate 
our trees. Not that we want to share these and allow you to 
have another outbreak of even worse invasive species, but what 
about things like beetles or goats, some of the other 
alternatives to controlling this?
    Mr. Carlson. I have some very recent information. USDA and 
Interior people have been working for almost 15 years now in 
identifying a biocontrol agent that would be very plant-
specific. It would just attack tamarisk and nothing else. They 
have found one they feel is really pretty ideal. It comes from 
China and, because it is a non-native species to this country, 
they have to go through a very rigorous program that APHIS--and 
I cannot recall what the acronym for ``APHIS''--Animal and 
Plant Health and something Service, under USDA--requires them 
to go through.
    They have had releases of this insect--it is a leaf 
beetle--that in Nevada, Wyoming, Colorado, and Utah has shown 
significant success to a point on a ranch in Nevada where it 
has totally defoliated over 400 acres. That will be an approach 
that can be added to the other approaches, that could greatly 
reduce the cost. It may reduce the cost down, instead of 
hundreds of dollars or thousands of dollars per acre, down to 
tens of dollars per acre, so getting it down significantly 
below.
    But like a number of people have pointed out, no one 
approach will work everywhere. So you have to use integrated 
pest management where you tailor the approach to the situation.
    We would love to have your whatever the beetle is that is 
infesting your area, but I suspect that it probably would go 
after a more palatable, other pine trees or whatever. We do not 
want it. Just like we do not want--we will not do a trade. We 
will not give you tamarisk, we do not want the beetle from 
Alaska.
    Senator Murkowski. That sounds fair.
    I appreciate the testimony that you all have given this 
afternoon. It has certainly been very helpful for me on a 
number of issues. I appreciate the attention of all that have 
come to listen this afternoon as well as testify and again 
appreciate your time.
    Thank you, and with that we will conclude the hearing.
    [Whereupon, at 4:11 p.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

                                                September 15, 2003.
Hon. Pete Domenici,
Hart Senate Office Building, Washington, DC.
    Dear Senator Domenici: I wanted to provide comments on S. 213, 
which would convey title to Tingley Beach and San Gabriel park 
properties to the City of Albuquerque from the United States.
    First, let me state that the Middle Rio Grande Conservancy District 
(``MRGCD'') fully supports the City's right to ownership of that land 
and supports passage S. 213.
    Certain timing issues may be relevant. For example, the MRGCD suit 
to this same property is scheduled for Trial early in the coming year, 
and by the Doctrine of ``Worthier Title,'' if we prevail, the title to 
the City's property will be cleared.
    Second, in addition, the issue of Federal ownership of Bureau of 
Reclamation properties is in dispute throughout the West. Congressional 
action in the case of the City might be cited as an example of why the 
Congress, not the Courts, should clear title.
    Finally, the Petition for Rehearing pending in the 10th Circuit 
Court of Appeals in RGSM v. Keys might also clarify this issue.
    I believe it might be useful for you and your staff to have this 
information.
            Sincerely,
                                            Subhas K. Shah,
                                                Chief Engineer/CEO.
                                 ______
                                 
                               State of New Mexico,
                                 Department of Game & Fish,
                                  Santa Fe, NM, September 15, 2003.
Erik Webb,
Senate Energy and Natural Resources Committee, Hart Senate Building, 
        Washington, DC.

Re: S. 1236 ``Tamarisk Control and Riparian Restoration Act.'' NMDGF 
Doc. #8916

    Dear Sirs: The New Mexico Department of Game and Fish (Department) 
has reviewed bill, S. 1236, a bill to direct the Secretary of the 
Interior to establish a program to control or eradicate Tamarisk in the 
Western United States, and for other purposes. The Department supports 
the goals of restoration of native riparian habitats addressed by this 
bill. The department also urges the long-term fiscal support of this 
project to assure complete restoration of native habitats.
    We appreciate the opportunity to comment on this document. Should 
you have any further questions please contact Michael Roedel, Aquatic 
Habitat Biologist, of my staff at 476-8091 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="026f706d6766676e4271766376672c6c6f2c77712c">[email&#160;protected]</a>
            Sincerely,
                                          Lisa Kirkpatrick,
                              Chief Conservation Services Division.
                                 ______
                                 
                               State of New Mexico,
                                 Department of Game & Fish,
                                  Santa Fe, NM, September 15, 2003.
Erik Webb,
Senate Energy and Natural Resources Committee, Hart Senate Building, 
        Washington, DC.

Re: S. 1516 ``Salt Cedar Control Demonstration Act.'' NMDGF Doc. #8915.

    Dear Sirs: The New Mexico Department of Game and Fish (Department) 
has reviewed bill, S. 1516, a bill to further the purposes of the 
Reclamation Projects Authorization and Adjustment Act of 1992 by 
directing the Secretary of the Interior, acting through the 
Commissioner of Reclamation, to carry out an assessment and 
demonstration program to assess potential increases in water 
availability for Bureau of Reclamation projects and other uses through 
control of salt cedar and Russian olive. The Department supports the 
goals of restoration of native riparian habitats addressed by this 
bill. The department also urges the long-term fiscal support of this 
project to assure complete restoration of native habitats.
    We appreciate the opportunity to comment on this document. Should 
you have any further questions please contact Michael Roedel, Aquatic 
Habitat Biologist, of my staff at 476-8091 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cba6b9a4aeafaea78bb8bfaabfaee5a5a6e5beb8e5">[email&#160;protected]</a>
            Sincerely,
                                          Lisa Kirkpatrick,
                              Chief Conservation Services Division.
                                 ______
                                 
         Statement of Martin J. Chavez, Mayor, Albuquerque, NM
    Thank you for inviting me to testify on Senate Bill 213.
    The City of Albuquerque is the victim of a fight between the 
Federal government and the Middle Rio Grande Conservancy District over 
water. The fight has jeopardized the development of Albuquerque's Rio 
Grande Biological Park.
    In 1997, the City paid the Conservancy District $3,875,000.00 for 
Tingley Beach and San Gabriel Park in order to expand the Rio Grande 
Biological Park. The Federal government now claims that the City does 
not own the property. (United States District Court for the District of 
New Mexico Cause No. CIV 99-1320 JP/KBM-ACE, entitled Rio Grande 
Silvery Minnow, et al. v. Eluid L. Martinez, et al.) The Federal 
government claims that in 1953, in an unrecorded ``Grant of Easement'', 
the Middle Rio Grande Conservancy District conveyed fee title to all of 
its property to the Federal government. If the claim is valid, the 
Middle Rio Grande Conservancy District did not own Tingley Beach and 
San Gabriel Park in 1997, and under Reclamation law, title to the 
property can be conveyed to the City only by an act of Congress.
    The Middle Rio Grande Conservancy District suggested that the 
parties seek Congressional action to clear the City's title to Tingley 
Beach and San Gabriel Park. The Middle Rio Grande Conservancy District 
also suggested the method which is incorporated in Senate Bill 213 to 
resolve the issue in a way that will not jeopardize the Middle Rio 
Grande Conservancy District's or the United States' claims in the 
litigation over ownership of Middle Rio Grande Project property. The 
City agrees that the Middle Rio Grande Conservancy District's 
suggestions will remove the cloud on the City's title to Tingley Beach 
and San Gabriel Park and permit the City to proceed with development of 
the property.
    The City plans to invest $15,300,000.00 of City funds to improve 
and develop Tingley Beach and San Gabriel Park for the Rio Grande 
Biological Park. The City cannot, however, risk the investment of 
public funds to improve property it may not own. Until the cloud on the 
City's title to the property has been removed, the City cannot improve 
Tingley Beach and San Gabriel Park and complete the Rio Grande 
Biological Park.
    Because of their location and characteristics, Tingley Beach and 
San Gabriel Park are unique properties for the development of the Rio 
Grande Biological Park. Monetary damages or the purchase of other 
property will not permit the City to develop the unique, high quality 
park that it can develop by improving Tingley Beach and San Gabriel 
Park.
    The Conservancy District leased Tingley Beach to the City in 1931 
and San Gabriel Park in 1963. The City has been in possession of the 
property since that time. The Conservancy District has not used the 
property and there are no reclamation works on the property. The Bureau 
of Reclamation recently determined that Tingley Beach and San Gabriel 
Park is surplus to the reclamation project and that the Bureau of 
Reclamation does not want the property.
    The enactment of Senate Bill 213 will remove the cloud on the 
City's title to Tingley Beach and San Gabriel Park and permit the City 
to complete the development of the Rio Grande Biological Park.
Rio Grande Bioloqical Park
    The Rio Grande Biological Park lies along the east side of the Rio 
Grande River north and south of Central Avenue, which is historic Route 
66 through Albuquerque. It is an educational, research and recreational 
treasure, that provides a unique and vital view of New Mexico and our 
biologically diverse world, not only for the residents and visitors to 
Albuquerque, but for the State of New Mexico. When completed, the Rio 
Grande Biological Park will instill in the public a recognition of the 
need for water conservation, habitat conservation, the interdependence 
of life and environmental stability that is essential to our future as 
a community, state and nation; support and enhance environmental 
education, awareness and stewardship; and provide a recreational, 
cultural and educational facility and resource that uniquely portrays 
the cultural, environmental and ecological aspects of the Rio Grande 
River.
    The Rio Grande Biological Park occupies 170 acres and consists of 
the Rio Grande Zoo, Tingley Aquatic Park, and the Albuquerque Aquarium 
and Botanic Garden. Tingley Aquatic Park will be constructed on the 
site of Tingley Beach and the Botanic Garden will be expanded into San 
Gabriel Park.
    Tingley Beach consists of 35.3 acres and is located south of 
Central Avenue between the Rio Grande Zoo and the Albuquerque Aquarium 
and Botanic Garden. It was created when Mayor Clyde Tingley, who later 
became Governor of New Mexico, asked the Middle Rio Grande Conservancy 
District to lease burrow pits that had been dug to construct a levy to 
the City for a park and swimming beach.
    The Albuquerque Aquarium and Botanic Garden is located north of 
Central Avenue across from Tingley Beach. San Gabriel Park consists of 
42.7 acres and is located northwest of and adjacent to the Botanic 
Garden. In the late 1950's, the Conservancy District moved the 
Albuquerque Drain west and isolated a portion of the Rio Grande River 
channel. The Conservancy District leased this property to the City for 
park and recreation purposes.
Tingley Aquatic Park
    Because it lies between the Rio Grande Zoo and the Albuquerque 
Aquarium and Botanic Garden, Tingley Aquatic Park is a key transitional 
and connecting element in the Rio Grande Biological Park system that is 
accessible by trail, road and eventually by a railroad.
    Tingley Aquatic Park will be developed for water-oriented 
recreational use, education and environmental research and planning. 
Improvements will consist of five lakes for boating, deep-water 
fishing, children's fishing and model boating. One lake will be an 
observation lake. The City will also construct a swimming pool, picnic 
areas and facilities, and a building for group meetings and gatherings 
on the property.
    As part of this project, the City will remove all non-native plants 
from the bosque adjacent to Tingley Beach and re-establish and maintain 
the Rio Grande cottonwood as the dominate canopy species. The City will 
also create additional wetlands and marshes that were historically 
abundant in the Rio Grande Valley.
    The United States Corps of Engineers has plans to assist the City 
in the reclamation and construction of the lakes. The Corps of 
Engineers also plans, in association with the Rio Grande Zoo, to 
construct a bosque exhibit on property adjacent to Tingley Beach that 
will illustrate a succession sequence from an oxbow lake, to a cattail 
marsh, to a saltgrass meadow, to a bosque.
    The City's and the Corps of Engineers' projects at Tingley Beach 
will improve wildlife habitat along the Rio Grande River at Tingley 
Aquatic Park.
    Tingley Aquatic Park is also a part of the Rio Grande Valley State 
Park which was authorized by the New Mexico Legislature in 1983 to 
preserve, protect and maintain the natural scenic beauty of the Rio 
Grande River and its immediate riverine corridor. The City is the 
operator of the Rio Grande Valley State Park.
San Gabriel Park
    The Botanic Garden was created to reflect the region's 
environmental and cultural heritage. The expansion of the Botanic 
Garden into San Gabriel Park will carry through with this theme. The 
improvements will include seventeen gardens, including a Japanese Tea 
Garden, conservatories, a tree nursery, botanic library, herbarium, 
office and meeting rooms, and support facilities.
    The expansion at San Gabriel Park will include ethnobotanic 
exhibits which will offer the only place in the state to learn about 
the historic use of plants for fiber, food and medicine. An antique 
apple orchard will feature apple trees that were brought to the area by 
Hispanic settlers. The Zuni Waffle Garden will illustrate ancient 
Anazazi Indian methods for conserving water and will feature ancient 
plants cultivated by the Anazazi. The City has already constructed the 
El Jardin de la Curandera exhibit at San Gabriel Park, honoring 400 
years of Hispana presence in New Mexico and exploring herbal medicines 
used within the contexts of the practices of curanderismo.
    A Period Farm will illustrate farming techniques and practices 
during the period from 1920 through 1940 which was the period of 
Albuquerque's greatest growth and transformation into an urban center.
    The Trial Garden will feature new breeds of plants and the Camino 
de Colores will be a highway of flowers.
    An exhibit entitled El Canoncito will provide the backdrop for the 
Conifer and Mountain Meadows exhibit and will illustrate the varied 
microclimates found in the mountain environments of New Mexico.
    San Gabriel Park is in the cottonwood bosque (riparian forest) of 
the Rio Grande River and offers an unparalleled opportunity to showcase 
this distinctive natural environment. The expansion of the Botanic 
Garden into San Gabriel Park will include a Cottonwood Gallery of the 
magnificent existing stands of cottonwoods that remain to provide a 
living example of the native bosque.
    The City, in cooperation with the State of New Mexico and the 
United States Bureau of Reclamation, has construct, at San Gabriel 
Park, the Rio Grande Silvery Minnow Rearing and Breeding Facility for 
breeding and conditioning the endangered Rio Grande Silvery Minnow for 
release into the Rio Grande River.
Rio Grande Bosque Railroad
    The master plan for the Rio Grande Biological Park includes the 
construction of the three-quarter scale Rio Grande Bosque Railroad 
which will provide a transportation link that covers the four miles of 
the Rio Grande Biological Park between the Aquarium and Botanic Garden 
in the north, through Tingley Aquatic Park, to the Rio Grande Zoo in 
the south. A depot and turnaround will be constructed at San Gabriel 
Park and a depot will be constructed at Tingley Aquatic Park. The Rio 
Grande Bosque Railroad will also connect the national Hispanic Cultural 
Center south of the Rio Grande Zoo with the Rio Grande Biological Park.
    The enactment of Senate Bill 213 will make the City's vision for a 
unique biological park possible. I urge your support of Senate Bill 
213.
                                 ______
                                 
           Statement of the American Farm Bureau Federation 
                         on S. 1236 and S. 1516
    The American Farm Bureau Federation (AFBF) is pleased to offer this 
statement for the hearing record in support of S. 1236 to establish a 
program for the control of salt cedar in the western United States, and 
S. 1516 to provide for a demonstration program to assess increases in 
water availability that might be achieved through salt cedar control.
    Salt cedars were introduced into the United States from the Middle 
East in the 1800's. Salt cedar is a fast spreading plant that has 
invaded stream banks, bottomlands and riverbanks throughout the western 
United States. They are highly invasive plants, and once established 
are highly persistent. Today, salt cedar occupies more than a million 
acres from Texas to Tacoma. Salt cedar has substantially impacted the 
natural riparian and wetland ecosystems throughout the West.
    The presence of salt cedar along riverbanks and in wet areas 
affects both water quantity and water quality. Salt cedar trees consume 
huge quantities of water, with each tree ``capable of using tip to 200 
gallons of water per day. In addition, salt cedar can excrete salt from 
its leaves, increasing the salinity of surrounding soil and waterways, 
making both the land and the water less useable for growing crops or 
forage.
    The control of salt cedar is important to farmers and ranchers, and 
to all water users. It is a competitor for water in an already 
overcrowded field.
    Demands for water in the western United States are increasing 
significantly. The West is the fastest growing region in the country. 
There are greater demands made through the Endangered Species Act and 
implementing court decisions to provide greater water to fish and 
wildlife. Requirements to keep minimum instream flows in rivers and 
streams are becoming more widespread.
    At the same time that demand for more water is growing, the 
available supply of water is dwindling. The West has been in a 
prolonged drought for several years, an already scarce resource is even 
scarcer.
    This combination of increasing demand and decreasing supply has led 
to serious conflicts among water users. The Klamath Basin in California 
and Oregon grabbed national headlines when the Bureau of Reclamation 
shut off water to over 1,400 farmers and ranchers in order to use 
project water for two endangered fish. Likewise, Albuquerque, New 
Mexico became a hotbed of controversy earlier this year when a federal 
appeals court ordered the Bureau of Reclamation to breach decades-old 
water contracts with farmers, ranchers and other landowners and to take 
their water to use for the endangered silvery minnow.
    The water issue in the West has reached such a serious state that 
earlier this year the Secretary of the Interior announced the 
development of ``WATER 2025,'' a blueprint to guide the Department and 
the federal government to prevent another confrontation among competing 
water users such as occurred in the Klamath Basin and Albuquerque.
    With water such a critical issue, it makes little sense to allow 
the unfettered spread of an invasive plant that can take up to 200 
gallons per day out of the water supply. Farm Bureau believes that 
control and eradication of salt cedar should be an essential component 
of any western water strategy.
    Both S. 1236 and S. 1516 would require an assessment of the extent 
of the salt cedar problem in the West and the costs of its removal and 
restoration of the land. S. 1236 would create a Tamarisk Assistance 
Program to provide grants to the states for salt cedar control 
projects. S. 1516 would provide for five demonstration projects using 
different control methods to determine the most effective means of 
control, monitor and document the extent of any water savings, 
determine conditions under which biomass removal is appropriate, and 
identify methods for preventing regrowth and reintroduction.
    Both bills are necessary and sound. States should be encouraged to 
control highly invasive and destructive species like salt cedar within 
their boundaries. Federal grants will allow states to undertake this 
needed control.
    At the same time, research is needed to assess the most effective 
and efficient control methods, and also to measure the water savings 
that might result from salt cedar control.
    Following are some specific suggestions for the bills:

          1. Legislation should include provisions for farmers, 
        ranchers and other private landowners to be eligible for grants 
        and to participate in any demonstration projects. We suggest 
        that both bills add provisions that provide for voluntary, 
        incentive based programs for farmers and ranchers to control 
        salt cedar on private lands. One incentive such a program might 
        provide would be to allow farmers and ranchers to keep all or a 
        portion of the water that is saved by salt cedar removal. For 
        that to occur, projects would have to monitor water 
        availability before and after cedar removal. Such programs 
        might be administered either through the Department of the 
        Interior or the Department of Agriculture with up to a 75 
        percent cost share as provided in the bills.
          2. S. 1236 would provide federal grants to state programs to 
        control salt cedar. We suggest that the bill contain a 
        provision that streamlines the National Environmental Policy 
        Act (NEPA) process for salt cedar removal projects. Grants 
        should be used for on-the-ground activities as much as 
        possible, and not for doing extensive NEPA paperwork.
          3. The demonstration projects that would be created under S. 
        1516 should be allocated equitably in different areas of the 
        region and among the tribes. In addition to providing 
        demonstration projects based on different control methods, we 
        suggest that demonstration projects also include different 
        organizational structures, such as federal projects and private 
        projects. One demonstration project should include a model for 
        voluntary, incentive-based private landowner control projects.

    Effective control of salt cedar will help provide a cleaner, more 
plentiful water supply to the water-starved West. Farm Bureau supports 
S. 1236 and S. 1516, and we look forward to working with the Committee 
to craft an effective salt cedar control program.
                                 ______
                                 
   Statement of Tom W. Davis, Manager, Carlsbad Irrigation District, 
                  Carlsbad, NM, on S. 1516 and S. 1236
    I am Tom W. Davis. Since 1987, I have been the Manager of the 
Carlsbad Irrigation District. For the sixteen years prior to my current 
employment, I was employed by the U.S. Department of Agriculture Forest 
Service in the field of natural resources management. During the past 
fifteen years I have had extensive experience in control and/or 
management of salt cedar (tamarisk spp.) in the Pecos Basin in New 
Mexico using chemical and mechanical methods.
    In recent years, driven primarily by drought conditions and water 
demands throughout the western United States, a tremendous amount of 
interest has been generated in salvaging water by eradicating salt 
cedar and to a lesser extent, Russian olive. This movement has been 
promoted by some as the ``Silver Bullet'' to increasing flowing water 
and restoring native riparian vegetation in our rivers. It is all too 
easy to over-simplify the complex nature of river systems and over-
promote the possible benefits of salt cedar removal while overlooking 
the possible unintended negative impacts of such actions or any 
environmental virtues salt cedar might provide.
    When considering conducting large salt cedar and Russian olive 
removal projects costing millions of dollars, a list of simple 
questions should be resolved to the extent possible before proceeding 
with the larger projects. Those questions are simple: Why; How; How 
much (cost and amount of acreage); What are the intended results; What 
are the unintended consequences; How to mitigate for these unintended 
consequences.
    I believe S. 1516, properly implemented, will provide the best 
answers possible to these questions.
    Salt cedar and Russian olive control is not a new concept along the 
Pecos River. In 1946, Royce Tipton, a hydrologist working with the 
National Water Planning Board, convinced both the states of New Mexico 
and Texas to sign the Pecos River Compact appropriating the waters of 
the Pecos River between the two states. The primary underpinning of 
this allocation of the flows of the Pecos was the perceived water 
salvage potential resulting from the eradication of non-native 
phreatophytes (salt cedar).
    Public Law 88-594, 78 Stat. 942 was signed on September 12, 1964 
authorizing the Secretary of the Interior to carry out a continuing 
program to reduce non-beneficial consumptive use of water in the Pecos 
River Basin in New Mexico and Texas. The Bureau of Reclamation was 
charged with the responsibility of implementing this project. 
Eventually, 36,000 acres in New Mexico and about 17,000 acres in Texas 
were mechanically cleared in the Pecos River Flood Plain. The areas 
originally cleared are maintained as cleared today. Salt cedar was left 
on the river bank for bank stabilization. With the exception of 
McMillan Delta, this area represented about 85% of the existing acreage 
infested by salt cedar.
    In 1988, G.E. Welder, a hydro-geologist with the U.S. Geological 
Survey, completed and published the results of a ten-year study 
attempting to quantify any additional base flows in a specific reach of 
the Pecos River resulting from eradication of 20,000 acres of salt 
cedar from that particular reach of the river flood plain. This study 
was not able to specifically quantify any increases in river base 
flows, but indicated that evapotransportation (ET) had been reduced by 
removing salt cedar from the flood plain vegetation. The study could 
only speculate as to the fate of any salvaged water made possible by a 
reduction in ET.
    To date, the 5,000-acre demonstration project on the Pecos River 
that I have been involved with since 1993 has not shown any increase in 
river base flows, nor has it shown any rise in the ground water table 
measured at ten monitoring wells. Although we used the best methods 
available to re-establish native vegetation by pole planting and re-
seeding, we have had only very marginal success. There has been an 
increase in wind erosion and an overall negative impact to wildlife. We 
have had problems with salt cedar re-establishment when conditions are 
favorable.
    More of these demonstration projects should be conducted before 
large-scale projects are conducted. S. 1516 will provide for that. 
However, with respect to the Pecos River in New Mexico, with exception 
of the McMillan Delta just north of Carlsbad, an estimated 95% of all 
salt cedar has been killed. However, based on experience, I predict the 
salt cedar will readily re-establish on these areas when favorable 
conditions exist. Also, it is interesting to note that the base flows 
in the Pecos River have been lower this summer than any other time in 
recorded history.
    However, in today's environment of increased demands on our river 
systems, we are obligated to investigate every option to maintain river 
flows. This legislation provides the opportunity to establish several 
demonstration projects. These projects will take another look at 
determining the merits of salt cedar removal, and monitor, measure and 
track any salvaged water and increased river flows. Using todays 
technology we must not only attempt to quantify actual water salvaged 
by reducing ET, but we must be certain of the environmental impacts, 
monetary costs and effectiveness associated with the different methods 
of salt cedar and Russian olive control. Also, we must mitigate the 
unintended consequences of removal of these species and prove reliable 
methods of re-establishing native vegetation. We must determine how to 
replace the virtues of salt cedar after its removal, such as stream 
bank stabilization and nesting sites for birds and cover for other 
wildlife. Also, we need to focus on the detrimental effects of large 
scale ground water pumping on river flows.
    These demonstration projects must be conducted in a variety of 
river systems throughout the western United States by non-biased 
professionals, representatives of federal and state agencies, 
universities, national laboratories and private contractors. The 
knowledge gained from these demonstrations will be critical in 
conducting proper future management of our riparian ecosystems and 
stabilizing river flows.
    S. 1516 provides for all of these elements and more. I request that 
you vote in support of this bill.
    It is my position that S. 1516 should be implemented to get at some 
of the unanswered questions before any large-scale control projects, as 
are provided for by S. 1236, are conducted. There are too many risks by 
immediately implementing S. 1236 before we know what the unintended 
consequences are, how to mitigate and the cost of this mitigation. 
Nature is not very forgiving here in the southwest. Any mistakes made 
might require decades to correct. I think S. 1236, in it's current 
form, should be put on hold.
    Thank you for the opportunity to comment on these bills.
                                 ______
                                 
    Statement of Steve Harris, Alliance for the Rio Grande Heritage
    Mr. Chairman, the Alliance for Rio Grande Heritage and its member 
groups have, over the past seven years, devoted their private resources 
to the problem of restoring the ecological health and integrity of the 
Rio Grande in Southern Colorado, New Mexico and West Texas. The Rio 
Grande problem is a difficult one stemming, as it does, from a century 
and a half of intensive development and control of land and water 
resources. Today, we are left with a river transformed by flood control 
and water diversion projects, a river that occupies only a portion of 
its historic floodplain and that retains a scant fraction of its 
natural water flows.
    One of the most vexing manifestations of the Rio Grande problem is 
the dominance of the river's ecosystem by non-native plants. The 
fertility of the Rio Grande basin, its ability to produce healthy crops 
and healthy wildlife has been sacrificed to persistent non-native 
species, like salt cedar.
    In speaking with local people in places like Presidio, Texas, 
Socorro, New Mexico and Alamosa, Colorado, we hear deep concern about 
the loss of land productivity from the invasion of salt cedar and a 
desire to reclaim the ecological and economic benefits of a healthy 
agro-ecological system, supported by a restored and healthy river.
    In the Rio Grande, producers and environmentalists have come 
together to attempt to address the salt cedar problem. Last year, the 
Alliance and the state Association of Soil and Water Conservation 
Districts successfully lobbied a $5 million appropriation from the New 
Mexico Legislature for salt cedar control and reestablishment of native 
vegetative associations. Bosque del Apache National Wildlife Refuge and 
Santa Ana Pueblo, to cite just two projects in the Middle Rio Grande, 
that have become model projects. They are indeed inspiring a growing 
regional effort to restore the Rio Grande.
    We are very pleased that the 108th Congress is addressing this 
problem, which plagues not only our locality but so much of the West.
    In deliberating this issue, we hope the Senate Committee on Energy 
and Natural Resources will consider a few reflections from our own 
experiences:

  <bullet> Impacts to Soutwestern willow flycatcher habitat are a 
        consideration. It is an established fact that, in the absence 
        of other types of habitat, the endangered flycatcher will 
        utilize mature salt cedar for nesting. We have been able to 
        conduct salt cedar projects without disturbing the flycatcher 
        by surveying project sites during nesting season to determine 
        whether nesting flycatchers are present. If the project area 
        contains flycatchers, the project is suspended. Consultations 
        with the U.S. Fish and Wildlife Service in our area have been 
        fairly consistent: if the salt cedar project is designed to 
        result in restoring similar acreages of native habitats, 
        eradication of non-native habitats can go forward.
  <bullet> Salt Cedar Eradication and Management is worth undertaking, 
        even if it does not salvage one acre-foot of useable water. 
        Although we would desire a measurable increase in the 
        availability of water to address the West's water shortages, 
        neither Congress nor restoration practitioners should succumb 
        to unreasonable expectations about the amount of water to be 
        produced.

    The connection between surface water and groundwater is quite 
complex. In our experience, most of the expected gains from eradicating 
water-consuming non-native plants have remained in the groundwater 
system, and are not added directly to the useable supplies. What we can 
be sure of is that the water saved will remain on the landscape, 
elevating water tables and adding modest amounts to the surface water 
system. We maintain that the benefits of improved wildlife habitat, 
restoration of native associations and of land productivity are reason 
enough to undertake salt cedar management projects.

  <bullet> Land restoration resulting from this measure is not apt to 
        be truly successful without attention to restoring some measure 
        of the underlying hydrologic regime. In many cases, it is the 
        loss of seasonal floods in the streams that has most 
        contributed to the dominance of these non-native trees. 
        Projects that fail to address the need of native species for 
        periodic inundation of floodplains have been least successful 
        in terms of self-maintenance of the desirable species and the 
        regrowth of the target species.
  <bullet> Monitoring, not just water salvage benefit, is essential in 
        restoring desirable plant associations. We all want to maximize 
        the number of acres restored using the limited funds available. 
        In our experience, there is a tremendous temptation to devote 
        almost no resources to long-term monitoring of the success of 
        these projects, especially the succession of vegetative 
        associations that follow the treatments. We urge this 
        Committee, in its findings to the Congress, to recommend for 
        appropriate monitoring regimes.
  <bullet> Treatments selected for elimination of invasive species will 
        vary from location to location. We have observed a tendency to 
        over-rely upon aerial herbicide applications because initial 
        per acre costs are lowest. However, these treatment methods are 
        not appropriate in a number of cases where native species, 
        valuable pasture or open water is present on the project site. 
        Project proponents should be advised to carefully assess the 
        conditions of individual sites and avoid reliance on an 
        expedient, ``one size fits all'' approach.
  <bullet> Fire prevention objectives in riparian areas may not be 
        served by aerial spraying alone. In the Rio Grande region, 
        dense thickets of invasive trees have increased the frequency 
        of fires, threatening both wildlife and human habitation by 
        providing more fuel than in native, open understory 
        assemblages. Salt Cedar eradication projects which result in 
        removal of the plants can assist in preventing bosque fires. 
        However, in areas where aerial spraying has been conducted, the 
        dead trees may not be removed. In such cases, the fire 
        potential may remain high until the hulks have been removed.

    Salt Cedar, Russian Olive and other persistent invaders have indeed 
become a scourge on the West. We have made most progress in reclaiming 
afflicted lands where we recognize that underlying ecological factors 
have contributed to our problem, have corrected these conditions and 
provided hydrologic and soil conditions which will favor the desirable 
native vegetation over the invasives.
    In most cases, restoration of the land's agro-ecological potential, 
not water salvage, ought to be the primary objective. If a site cannot 
support restoration or is likely to require repeated, costly 
maintenance, it may be a poor candidate for eradication of non-native, 
invasive plants..
    Thank you.
                                 ______
                                 
                                   Capitan, NM, September 19, 2003.
Erik Webb,
Senate Energy and Natural Resources Committee, Washington, DC.

Subject: Salt Cedar Hearings

    Dear Mr. Webb: I received your posting today and hope that it is 
not too late. I am a vegetation management specialist, with 23 years 
experience in fuel reductions, removal of woody species, weed and brush 
control through integrated management including herbicides and 
rehabilitation techniques. I have some comments about the bill.
    Salt cedar is definitely a very damaging plant and should be 
managed. However, the scapegoat technique should not apply. People in 
the southwest are being led to believe that if we eradicate the salt 
cedar their water problems will go away. This is not the case. Salt 
cedar is one of many problems our bosques, watertables, riverbanks, 
landscapes and riparian areas are facing. Water management must be part 
of this program, or a program that promotes water management should be 
created or supported.
    In my experience of treated sites, I have notices that only the 
wealthy landowners are receiving benefits of the program. They are the 
ones who are going to the meetings and signing up. The less wealthy 
families are still at work. one soil and water conservation district 
has been completely successful and has provided the state of NM with 
the most efficient program yet. This is the Carlsbad SWCD. The manager 
of this program is a paid employee, well educated in conservation and 
experienced in vegetation management.
    Salt Cedar is not the only plant that is causing problems. Russian 
olives, Siberian Elm, Pinion, Juniper, and a variety of other plants 
are creating monocultures in areas that are already damaged due to 
drought and poor land management. These plants have been allowed to 
invade due to several human caused factors, and a few environmentally 
caused factors, but mainly human. Education could follow a removal 
program. Otherwise, another problem will appear.
    As a vegetation management specialist, I have personally removed 
thousands of acres of plants with the use of bulldozers, fire, 
chemicals, extraction and chain saws. Once one species is removed, we 
anticipate that desirable, healthy vegetation will reappear or 
reestablish. This is not the case. Other plants, possibly those even 
less desirable than salt cedar, pinion, elm or olive will establish. 
Often these plants are more difficult to control than the target 
species. I've seen this occur many times. Measures must be made, prior 
to salt cedar removal, to inventory existing alternate vegetation so 
the management of the land can prepare for these species increased 
establishment.
    In other words, at this time, the salt cedar control project has 
people managing the land that have absolutely no experience in this 
matter. We have volunteer supervisors with the soil and water 
conservation district managing land with no knowledge of these species 
or of land rehabilitation determining the fate of these lands. The 
management of these species is large and the mistakes will be and are 
large. Major mistakes are being made, and large amounts of money are 
being spent. This is not necessary.
    In these programs, we have coordinators that do not even understand 
procurement policy. The contractors are running amuck with their prices 
($3200/acre and up). This is outrageous. Management of the program must 
be professional and designated. We have management from volunteers and 
that is what is happening with the progress. There is very little.
    The public would like to think that salt cedar is the cause of all 
our problems, however, the fact of the matter is, we are completely 
over-vegetated with non-natives as well as natives. I wrote a grant for 
the soil and water conservation district (and was granted $350,000) for 
watershed rehabilitation. The grant is to remove ALL trees/vegetation 
necessary to provide management to create less than 5 trees to the 
acre. The canopy will have a 60% reduction in canopy cover and the 
vegetation will be mulched to protect what little moisture is in the 
ground.
    Many people think that more research needs to be done. That is 
incorrect. we have years of research. During the past three contracts I 
have received for salt cedar removal, my company has been in touch with 
these researchers, constantly providing information, statistics and 
pertinent data to continue research. However, we will never obtain the 
information we are wanting unless we do the work and make changes as we 
move along. In the meantime, we will be in accomplishing positive 
results.
    Many environmentalists are wanting to stop this program. Some 
reason are valid, however, due to the drought, not just poor water 
management, we are faced with a dilemma. Do we stop? Do we research 
more? Do we discuss? In the mean time, we are on the verge of 
irreparable damage to waterways, watersheds, rivers and streams. I am a 
firm believer that the only way to manage growth is to manage the 
water. If we cannot manage the water, how could we ever hope to manage 
growth? Our economic basis is founded on management and specific 
growth. some areas have chosen tourism to provide jobs, schools, 
community needs and taxes. If there is no water, if the fuel load is so 
high the area is closed, if the water smells due to contamination and 
overloading, how can that community grow? some areas have chosen 
retirement for their slow but secure growth. Again, with unmanaged 
water, or with water being consumed only by those who can buy it, how 
will senior people have a chance to compete in a fast paced water 
market?
    These questions I raise are much more than salt cedar eradication, 
but the point is, salt cedar is one method to control our water, our 
land, and our land management. However, management is the key. We must 
provide an integrated management plan. The management team must be more 
than volunteer conservation district supervisors. The NRCS is much more 
equipped to handle this, or the state can assign the fund to a task 
force to manage. This would insure equal and fair application and use 
of the money.
    We also have an issue with one county. Many land owners are 
removing the salt cedar and assisting the program. Private property can 
quickly participate in the management of these plants because EA's 
don't have to be done. There are no evaluations or monitors or 
assessments on private land. So, much of the taxpayers dollars are 
being spent on private land. We have one county, who, after many 
landowners treated their land, has decided to raise the taxes on their 
land due to what the county assessor is calling a property improvement 
which has increased the value of the property.
    In one instance, many acres were treated at the headwaters of the 
watershed. The community felt that the increase in water salvage was 
theirs, and the community quickly approved a new subdivision that would 
build two new golf courses. However, during the past 20 years, this 
community had no water management, but rather continued to pump at 
their leisure. The two rivers through this community began to show the 
damage, with one river being completely dry. The new ``water'' was 
being absconded, while the people downstream still had no benefit nor 
increased water. The two small irrigation communities saw no increase 
in water as the amount of salvage was already ``used'' upstream. Water 
management, again.
    I would like to be more involved with this process. Thank you for 
your question and inquiry and your time.

                                          Sally K. Canning,
                                            DeVeg Management Group.
                                 ______
                                 
Statement of Clayton Friend, Tom Green County Commissioner, Precinct #1 
  and District Manager, Tom Green County Water Control & Improvement 
                       District #1, Veribest, TX
History
    The San Angelo Project was constructed with oversight by the Bureau 
of Reclamation and completed around 1962. The project included the Twin 
Buttes Reservoir which was to provide municipal, industrial and 
recreational water for the City of San Angelo, Texas with storage 
capacity of approximately 180,000 acre feet of water. In addition, the 
San Angelo Project was to provide irrigation water to the District by 
using a 65 mile concrete lined irrigation canal system that was 
constructed with Bureau of Reclamation oversight during the same 
period. This canal system was to provide access to the water stored in 
the Twin Buttes Reservoir to irrigate 10,000 acres of farmland. Ten 
years passed before there was enough water in the Reservoir to release 
any water into the canal system. In 1972, the first irrigation releases 
were made to the District through the canal system. Both the City of 
San Angelo and the District have repayment contracts with the Bureau of 
Reclamation, Department of the Interior for their portion of the costs 
of the San Angelo Project.
    The District's outstanding loan with the Department of the Interior 
for the construction of the irrigation canal is Contract No. 14-06-500-
369, San Angelo Project. The original amount of the District's loan was 
$4,000,000. The District has paid $1,506,132, and the remaining balance 
is $2,487,707.
Problems
    The farmers in the District have made diligent efforts to make 
timely payments on the contract. They have, in fact, paid 38% of the 
original debt owed to the Department of the Interior. One of the 
problems is that the farmers haven't received a fair return on their 
investment. The farmers have received a full year's allocation of 
irrigation water, 24 inches per acre, only 50% of the time since 1962 
when the canal was completed. However, for the other 50% of the time 
the farmers received either less than the annual 24 inches per acre of 
irrigation water or no irrigation water at all. Payment on the debt has 
never been forgiven, even in years when the District received no water. 
Deferments have been granted seven times due to drought conditions. 
Those payments, however still have to be made. They are added to the 
remaining balance and the payments continue to get higher annually 
because the original contract end date does not change.
    The last time the farmers have had any water available from Twin 
Buttes Reservoir was in 1998 when they received 1\1/2\ inches of water 
per acre. The last time they had the full allocation of 24 inches per 
acre was in 1997. Farmers cannot exist paying the operation and 
maintenance costs of the District and the repayment to the Bureau of 
Reclamation when there is little or no water available.
    The following represents the amounts of irrigation water available 
from Twin Buttes reservoir since completion of the canal system:
      1962--0 inches

      1963--0 inches

      1964--0 inches

      1965--0 inches

      1966--0 inches

      1967--0 inches

      1968--0 inches

      1969--0 inches

      1970--0 inches

      1971--0 inches

      1972--24 inches

      1973--24 inches

      1974--24 inches

      1975--24 inches

      1976--24 inches

    1977--24 inches

    1978--24 inches

    1979--24 inches

    1980--24 inches

    1981--24 inches

    1982--24 inches

    1983--4.5 inches

    1984--0 inches

    1985--0 inches

    1986--0 inches

    1986--0 inches

    1986--0 inches

    1987--24 inches

    1988--24 inches

    1989--24 inches

    1990--24 inches

    1991--24 inches

    1992--24 inches

    1993--24 inches

    1994--24 inches

    1995--10 inches

    1996--4 inches

    1997--24 inches

    1998--1.5 inches

    1999--0 inches

    2000--0 inches

    2001--0 inches

    2002--0 inches


    As indicated in the chart above, the District has received little 
or no water in 21 of 40 years.
Current Lake Level and Water Credit Procedures
    At the present time, Twin Buttes Reservoir only has 5% of water in 
storage. This amounts to approximately 9,100 acre feet. There is a 
water accounting system that credits water to the District and to the 
City of San Angelo. The District gets credit for all of the water above 
50,000 acre feet of stored water. With the current lake level at 9,100 
acre feet, the lake would have to have inflow of over 40,000 acre feet 
before the District gets even one drop of water in storage credits. To 
irrigate 10,000 acres, it takes about 867 acre feet to equal one inch 
of water per acre of farmland.
    Evaporation also must be considered which sometimes can amount to 
15% to 20%, so additional water must be available to allow for 
evaporation. As has been stated previously in this report, a normal 
irrigating season with a full allocation of irrigation water (24 inches 
per acre) there must be approximately 22,000 acre feet available for 
10,000 acres of farmland.
Additional Problems
    There has been an additional problem facing the farmers in the 
District. The concrete lining that was placed in the canal system in 
the early 60's has started to deteriorate after 40 years and now 
repairs are necessary. The canal lining was designed without any 
reinforcement steel of any kind and has progressively become worse over 
time. To repair the canal lining places additional burdens on the 
farmers because the repairs are very expensive. The farmers in the 
District have to pay the annual payment for the construction of the 
canal plus the operation and maintenance costs for the operation of the 
District. If you have to add the expensive repair costs that need to be 
done, it makes it virtually impossible for the farmers to make a profit 
when there is no water available from Twin Buttes Reservoir. The 
District is, however, trying to repair parts of the canal system that 
need the most attention. With Bureau of Reclamation approval, the 
District is using up to $30,000 of its reserve funds to pay for some of 
the necessary repairs. The amount of reserve funds available is very 
limited and will only cover a small amount. The following slides show 
the deteriorating canal lining and small places where repairs have been 
made at the District's own expense.
Looking for an Alternative Water Supply
    Because there was no water available in Twin Buttes Reservoir, the 
District has contracted with the City of San Angelo for the use of it's 
reclaimed wastewater from it's wastewater treatment plant. This 
provides for 8 inches of wastewater per acre of land annually. This 
water has to be used on a continual basis because the City of San 
Angelo produces wastewater daily and has limited storage capacities. 
This reduces the amount of water that can be provided to farm crops 
during the growing season which is typically during the spring and 
summer months. There was additional stress placed on the District 
because a return flow pumping system had to be installed to keep the 
wastewater from entering into the Concho River. A loan from the Texas 
Water Development Board in the amount of $150,000 was made available to 
the District to help finance the cost of the pumping system which cost 
around $190,000. Annual payments to the TWDB are made by assessing fees 
to the farmers in the District. These fees are in addition to the fees 
already mentioned. The amount of water available from the wastewater 
treatment plant is only 8 inches per acre per year. The farmers have to 
pay full irrigation prices yet they only receive 8 inches of wastewater 
per acre per year and nothing from Twin Buttes Reservoir.
Effects of Drought and Depressed Commodity Prices on Farmers in the 
        District
    The local Texas Agricultural Extension Agents assisted the District 
personnel in preparing the following data. The data compares the 
average income during the years from 1988-1992 when 24 inches of 
irrigation water per acre was available and the year 2000 when there 
was no water available for irrigation from Twin Buttes Reservoir.

 
------------------------------------------------------------------------
       Crop years 1988-1992              Crops grown       Cash receipts
------------------------------------------------------------------------
                                    Cotton..............   $1,705,312.50
                                    Grain Sorghum.......      232,232.00
                                    Wheat...............       61,620.00
                                    Corn Ensilage.......      200,000.00
    Total all crops...............    ..................   $2,199,164.50
------------------------------------------------------------------------
          Crop Year 2000
------------------------------------------------------------------------
                                    Cotton..............   $1,085,280.00
                                    Grain Sorghum.......       94,500.00
                                    Wheat...............      115,670.00
                                    Corn Ensilage.......      124,800.00
    Total all crops...............    ..................   $1,420,250.00
    Difference....................    ..................   ($778,914.50)
    This equals a 33.3% loss in
     income.
------------------------------------------------------------------------

    The results for the year 2000 would be very similar to the years 
2001 and 2002 as well as other years that there was no irrigation water 
available from Twin Buttes Reservoir. The Extension Agent was only 
asked to provide the most recent year's data available which, at the 
time, was the year 2000.
Possible Solutions
    Included below are several suggestions that would help solve the 
current problem.

  <bullet> Extend the repayment period of the loan from 40 to 50 years. 
        This would allow the annual payments to be reduced because they 
        would be extended for an additional 10 years. This same option 
        was granted to the City of San Angelo in 1971.
  <bullet> Reduce the amount owed to the Bureau of Reclamation on the 
        repayment contract to allow the District to have funds 
        available for the repairs on the canal system. The canal system 
        is going to continue to deteriorate and must be repaired.
  <bullet> Restructuring the loan would also help. If the end date of 
        the repayment contract could be extended for each year that a 
        deferment was granted this would keep the payments the same 
        each year and not get bigger each time a deferment was granted.
  <bullet> Have payments to be made only when water in Twin Buttes 
        Reservoir is available for irrigation use. If a full 24 inches 
        per acre is available, then the full payment would be due. If 
        12 inches, for example, per acre is only available, then 1/2 
        the payment would be due. This would give some relief to the 
        farmers when the full allocation is not available.

    If we continue as we are, the payments will only get bigger and the 
ability of the farmers to pay the debt will only get more difficult. On 
August 29, 2000, then Regional Director Maryanne Bach states 
``Reclamation is aware of the drought conditions in the State of Texas 
which continue to impact the availability of water within the San 
Angelo project. Although the deferments received by the District to 
date have not increased the District's remaining obligation to the 
United States, the deferments have increased the amount of the annual 
payments for the remaining repayment period because Reclamation does 
not have the authority to extend the repayment period without 
congressional approval. The increased annual payments place additional 
burden on the District. This financial burden has been exacerbated by 
current drought conditions and Reclamation believes any additional 
increase will only lead to future financial difficulty that cannot be 
offset by Reclamation under its limited authority.''
Conclusions
    The Tom Green County Water Control & Improvement District #1 does 
not ask for a handout. Instead, the District is asking for a helping 
hand. Any consideration in the form of relief will be greatly 
appreciated. The District has tried to be a good partner in this 
effort. The District also has an excellent working relationship with 
the Bureau of Reclamation and has welcomed any and all support or 
suggestions made by its personnel.
    Honorable members of the Senate Energy and Natural Resources 
Committee, we have a deteriorating canal system and we still owe over 
19 years on the debt. It's like owning an old worn out car but still 
making payments. Repairs can be devastating.
            Thank you,
                                            Clayton Friend,
                                                  District Manager.

                                    

      

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
